            EVALUATION REPORT

              Independent Evaluation of NRC’s Implementation
               of the Federal Information Security Management
                       Act (FISMA) for Fiscal Year 2007

                     OIG-07-A-19     September 28, 2007




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                          September 28, 2007



MEMORANDUM TO:              Luis A. Reyes
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    INDEPENDENT EVALUATION OF NRC’S
                            IMPLEMENTATION OF THE FEDERAL INFORMATION
                            SECURITY MANAGEMENT ACT (FISMA) FOR FISCAL
                            YEAR 2007 (OIG-07-19)


Attached is the Office of the Inspector General’s (OIG) audit report titled, Independent
Evaluation of NRC’s Implementation of the Federal Information Security Management
Act (FISMA) for Fiscal Year 2007.

This report presents the results of the subject audit. Agency comments provided at the
exit conference on September 17, 2007, have been incorporated, as appropriate, into
this report. The agency provided formal comments, which appear in Appendix E of the
report. Appendix F contains the detailed OIG analysis of agency comments.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG follow up as stated in Management Directive 6.1. Note that
the recommendations made in the Fiscal Year 2005 and Fiscal Year 2006 FISMA
evaluations, which are resolved but still require agency action in order to be closed, will
now be tracked under this year’s FISMA report.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915, or Beth Serepca, Team Leader, Security and Information Management
Team, at 415-5911.

Attachment: As stated
Electronic Distribution

Frank P. Gillespie, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
William M. McCabe, Chief Financial Officer
Margaret M. Doane, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
William F. Kane, Deputy Executive Director for Reactor
 and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Waste, Research,
 State, Tribal, and Compliance Programs, OEDO
Darren B. Ash, Deputy Executive Director for Information Services
 and Chief Information Officer, OEDO
Vonna L. Ordaz, Assistant for Operations, OEDO
Timothy F. Hagan, Director, Office of Administration
Cynthia A. Carpenter, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
 and Environmental Management Programs
Guy P. Caputo, Director, Office of Investigations
Edward T. Baker, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
R. William Borchardt, Director, Office of New Reactors
Michael F. Weber, Director, Office of Nuclear Material Safety and Safeguards
James E. Dyer, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
William D. Travers, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Bruce S. Mallett, Regional Administrator, Region IV
                           Independent Evaluation of
                          NRC’s Implementation of the
                 Federal Information Security Management Act
                              for Fiscal Year 2007




                            Contract Number: GS-00F-0001N
                          Delivery Order Number: DR-36-03-346

                                                 September 25, 2007




The views, opinions, and findings contained in this report are those of the authors and should not be construed as an official Nuclear Regulatory
                       Commission position, policy, or decision, unless so designated by other official documentation.
[Page intentionally left blank]
                                                                                         Independent Evaluation of
                                                                          NRC’s Implementation of FISMA for FY 2007


EXECUTIVE SUMMARY


BACKGROUND

           On December 17, 2002, the President signed the E-Government Act of 2002, which
           included the Federal Information Security Management Act (FISMA) of 2002. FISMA
           outlines the information security management requirements for agencies, which include
           an annual independent evaluation of an agency’s information security program1 and
           practices to determine its effectiveness. This evaluation must include testing the
           effectiveness of information security policies, procedures, and practices for a
           representative subset of the agency’s information systems. FISMA requires the annual
           evaluation to be performed by the agency’s Inspector General (IG) or by an independent
           external auditor.

           Office of Management and Budget (OMB) memorandum M-07-19, FY 2007 Reporting
           Instructions for the Federal Information Security Management Act and Agency Privacy
           Management, dated July 25, 2007, requires the agency’s IG to complete the OMB
           FISMA Reporting Template for IGs (referred to by OMB as Section C). That template,
           along with any additional narrative the IG believes would provide meaningful insight into
           the status of the agency’s security or privacy program, is submitted to OMB as part of the
           agency’s annual FISMA report, and is included as Appendix D to this report.

           This report reflects the status of the agency’s information system security program as of
           the completion of fieldwork on August 17, 2007. Any information received from the
           agency subsequent to the completion of fieldwork was incorporated when possible.

PURPOSE

           The objective of this review was to perform an independent evaluation of the Nuclear
           Regulatory Commission’s (NRC) implementation of FISMA for FY 2007.

RESULTS IN BRIEF

           Program Enhancements and Improvements

           To correct weaknesses identified by the FY 2005 and FY 2006 FISMA independent
           evaluations by the NRC Office of the Inspector General (OIG), and to address findings
           from the agency’s own evaluations, the agency has refocused its information system
           security program. Under the refocused program, the agency proposed performing
           certification and accreditation of systems that are a high priority from a mission
           perspective and others that potentially pose a higher security risk (e.g., agency systems
           that communicate with systems outside the NRC network). The first certification and
           accreditation schedule under the refocused program was issued in February 2006. This
           schedule has changed several times since February 2006.

1
    For the purposes of FISMA, the agency uses the term “information system security program.”


                                                          i
                                                                     Independent Evaluation of
                                                      NRC’s Implementation of FISMA for FY 2007




The agency has accomplished the following since the FY 2006 FISMA independent
evaluation:

   •   The agency developed a new certification and accreditation process. The agency
       has finalized the templates for all certification and accreditation documents as
       well as instructions for completing the templates. The updated certification and
       accreditation process was also integrated into the agency’s new project
       management methodology.
   •   As required by FISMA, NRC performed annual testing and evaluation (also
       referred to as self-assessment) of the security controls for 28 of the agency’s 30
       operational systems. As the other two agency operational systems were just
       certified and accredited in FY 2007, the agency did not perform an additional self-
       assessment of those systems as permitted by OMB and National Institute of
       Standards and Technology (NIST) guidance.
   •   The agency updated security plans for 5 of the agency’s 30 operational systems.
       Subsequent to the completion of fieldwork, the agency provided an updated
       security plan for another system.
   •   The agency completed the consolidation and reconciliation of data from NRC
       information systems inventory systems and created a new centralized system for
       tracking NRC information systems.
   •   The agency has developed policies, procedures, and a template for conducting
       privacy impact assessments (PIA).
   •   The agency has made significant progress in implementing the provisions of
       OMB memorandum M-06-15, Safeguarding Personally Identifiable Information,
       as well as subsequent memoranda issued by OMB regarding privacy and the
       protection of personally identifiable information (PII).

Significant Deficiencies

The following significant deficiencies were identified in NRC’s information system
security program. These significant deficiencies were also identified in the FY 2006
FISMA independent evaluation, and were reported as findings in the FY 2005 FISMA
independent evaluation.

   •   Only 2 of the 30 operational NRC information systems have a current certification
       and accreditation, and only 4 of the 11 systems used or operated by a contractor or
       other organization on behalf of the agency have a current certification and
       accreditation. Subsequent to the completion of fieldwork, the agency completed
       certification and accreditation of one of the contractor systems for which they
       have direct oversight, and the system was granted an authorization to operate
       (ATO). Two additional agency systems have also been certified and are currently
       under review by the agency’s designated approving authority for consideration of
       an ATO.
   •   Annual contingency plan testing is still not being performed for all systems.


                                        ii
                                                                          Independent Evaluation of
                                                           NRC’s Implementation of FISMA for FY 2007




     Program Weaknesses

     The independent evaluation also identified 12 information system security program
     weaknesses. Five are repeat findings from the FY 2005 and FY 2006 FISMA
     independent evaluations and are identified in the body of the report. The following seven
     findings are new.

        •   Security categorizations for some systems do not consistently reflect the
            information types that reside on the systems.
        •   The agency did not follow OMB and NIST guidance when conducting its annual
            self-assessments.
        •   Self-assessments were not always based on approved security categorizations.
        •   Self-assessments contained errors and inconsistencies.
        •   The agency’s methodology is flawed for identifying which listed systems reside
            on the NRC network and which do not.
        •   The quality of the agency’s plans of action and milestones (POA&Ms) needs
            improvement.
        •   The agency’s certification and accreditation process is inconsistent with NIST
            guidance.

RECOMMENDATIONS

     This report makes recommendations to the Executive Director for Operations to improve
     NRC’s information system security program and implementation of FISMA. A
     consolidated list of recommendations appears on page 45 of this report.

AGENCY COMMENTS

     At an exit conference with the agency held on September 17, 2007, the agency provided
     informal written comments and generally agreed with the report recommendations. The
     NRC Chief Information Officer provided a formal response to this report on September
     24, 2007. Appendix E contains the Chief Information Officer’s transmittal letter. The
     agency’s formal comments along with OIG’s analysis and response to those comments
     are included as Appendix F. This final report incorporates revisions made, where
     appropriate, in response to the agency’s comments.




                                             iii
                                            Independent Evaluation of
                             NRC’s Implementation of FISMA for FY 2007




[Page intentionally left blank]




              iv
                                                                        Independent Evaluation of
                                                         NRC’s Implementation of FISMA for FY 2007


ABBREVIATIONS AND ACRONYMS


ADAMS               Agencywide Document Access and Management System
ATO                 Authorization to Operate
BPIAD               Business Process Improvement and Applications Division
Carson Associates   Richard S. Carson and Associates, Inc.
CIO                 Chief Information Officer
COOP                Network Continuity of Operations
DISA                Defense Information Systems Agency
FIPS                Federal Information Processing Standard
FISMA               Federal Information Security Management Act
FY                  Fiscal Year
HSPD                Homeland Security Presidential Directive
IATO                Interim Authorization to Operate
IG                  Inspector General
IRSD                Information and Records Services Division
ISS                 Information System Security
IT                  Information Technology
LAN/WAN             Local Area Network/Wide Area Network
MD                  Management Directive
NIST                National Institute of Standards and Technology
NRC                 Nuclear Regulatory Commission
OIG                 Office of the Inspector General
OIS                 Office of Information Services
OMB                 Office of Management and Budget
PIA                 Privacy Impact Assessment
PII                 Personally Identifiable Information
POA&M               Plan of Action and Milestones
SP                  Special Publication
SSN                 Social Security Number
US-CERT             United States Computer Emergency Readiness Team




                                           v
                                            Independent Evaluation of
                             NRC’s Implementation of FISMA for FY 2007




[Page intentionally left blank]




              vi
                                                                                                           Independent Evaluation of
                                                                                            NRC’s Implementation of FISMA for FY 2007


TABLE OF CONTENTS


Executive Summary ....................................................................................................... i

1 Background .............................................................................................................. 1
2 Purpose .................................................................................................................... 1
3 Findings.................................................................................................................... 1
  3.1 FISMA Systems Inventory .............................................................................. 4
            FINDING A – Security Categorizations for Some Systems Do Not Consistently Reflect the
                        Information Types that Reside on the Systems (New Finding) .......................... 6
            FINDING B – Majority of NRC Major Applications and General Support Systems Have Not
                        Been Categorized in Accordance With FIPS 199 (Repeat Finding) ................... 8
    3.2     Certification and Accreditation, Security Controls Testing, and
            Contingency Plan Testing .............................................................................. 9
            3.2.1 Certification and Accreditation....................................................................... 9
            FINDING C – The Majority of NRC Systems Are Not Certified and Accredited (Repeat
                         Significant Deficiency) ....................................................................................... 9
            3.2.2 Security Control Test and Evaluation .......................................................... 10
            FINDING D – The Agency Did Not Follow OMB and NIST Guidance When Conducting Its
                         Annual Self-Assessments (New Finding) ......................................................... 12
            FINDING E – Self-Assessments Were Not Always Based on Approved Security
                         Categorizations (New Finding) ......................................................................... 14
            FINDING F – Self-Assessments Contained Errors and Inconsistencies (New Finding)........... 15
            3.2.3 Contingency Planning and Testing.............................................................. 16
            FINDING G – Annual Contingency Plan Testing Is Still Not Being Performed For All Systems
                         (Repeat Significant Deficiency) ........................................................................ 17
    3.3     Evaluation of Agency Oversight of Contractor Systems ........................... 19
            FINDING H – Agency Does Not Maintain Documentation That Demonstrates Systems
                         Provided By Other Federal Agencies Meet FISMA Requirements (Repeat
                         Finding) ............................................................................................................. 19
            FINDING I – Oversight of Other Contractor Systems Is Lacking (Repeat Finding) ................ 20
    3.4     Evaluation of Quality of Agency System Inventory.................................... 21
            FINDING J – Agency Methodology Is Flawed for Identifying Which Listed Systems Reside
                         On the NRC Network and Which Do Not (New Finding) ................................ 23
    3.5     Evaluation of Agency POA&M Process....................................................... 23
            FINDING K – The Quality of the Agency’s POA&Ms Needs Improvement (New Finding) .. 24
    3.6     IG Assessment of the Certification and Accreditation Process................ 26
            FINDING L – The Agency’s Certification and Accreditation Process Is Inconsistent With
                        NIST Guidance (New Finding) ......................................................................... 30
    3.7     IG Assessment of Agency Privacy Program and Privacy Impact
            Assessment Process .................................................................................... 34
            3.7.1      Privacy Impact Assessment Process .......................................................... 34



                                                                      vii
                                                                                                           Independent Evaluation of
                                                                                            NRC’s Implementation of FISMA for FY 2007


            3.7.2      Progress in Implementing OMB M-06-15 ..................................................... 37
    3.8 Configuration Management .......................................................................... 39
    3.9 Incident Reporting......................................................................................... 40
    3.10 Security Awareness Training ....................................................................... 40
            FINDING M – Agency Lacks Procedures for Ensuring Employees With Significant IT
                        Security Responsibilities Receive Security Training (Repeat Finding) ............ 42
    3.11 E-Authentication Risk Assessments ........................................................... 42
            FINDING N – E-Authentication Risk Assessments Have Not Been Completed (Repeat
                        Finding) ............................................................................................................. 43
4 Consolidated List of Recommendations ............................................................. 45
5 Agency Comments ................................................................................................ 47


Appendices

    Appendix A.          SCOPE AND METHODOLOGY.................................................................... 49
    Appendix B.          STATUS OF CONTINGENCY PLAN TESTING ........................................... 51
    Appendix C.          DETAILED POA&Ms ANALYSIS ................................................................. 55
    Appendix D.          FY 2007 OMB FISMA REPORTING TEMPLATE FOR IGs ......................... 57
    Appendix E.          MEMORANDUM TRANSMITTING AGENCY RESPONSE .......................... 69
    Appendix F.          FORMAL AGENCY COMMENTS AND DETAILED OIG ANALYSIS OF
                         AGENCY COMMENTS ................................................................................. 71



List of Tables

    Table 3-1. Total Number of Agency Systems by FIPS 199 Risk Impact Level................4
    Table 3-2. Total Number of Contractor Systems by FIPS 199 Risk Impact Level ..........5
    Table 3-3. Primary Information Type Comparison – Exhibit 53 and Security
               Categorization ....................................................................................................7
    Table 3-3. Number of Systems Certified and Accredited by FIPS 199 Risk Impact
               Level ....................................................................................................................9
    Table 3-4. Number of Systems With Tested and Evaluated Security Controls by
               FIPS 199 Risk Impact Level .............................................................................10
    Table 3-5. Number of Systems With Tested Contingency Plans by FIPS 199 Risk
               Impact Level .....................................................................................................16
    Table B-1. Status of Contingency Plan Testing ..............................................................51
    Table C-1. Program Level POA&M Statistics...................................................................55
    Table C-2. System Level POA&Ms Statistics...................................................................55
    Table C-3. Summary of FY 2007 POA&Ms Through the 3rd Quarter ..............................56




                                                                     viii
                                                                                        Independent Evaluation of
                                                                         NRC’s Implementation of FISMA for FY 2007


1          Background

On December 17, 2002, the President signed the E-Government Act of 2002, which included
FISMA.2 FISMA outlines the information security management requirements for agencies,
which include an annual independent evaluation of an agency’s information security program
and practices to determine its effectiveness. This evaluation must include testing the
effectiveness of information security policies, procedures, and practices for a representative
subset of the agency’s information systems. FISMA requires the annual evaluation to be
performed by the agency’s IG or by an independent external auditor.

OMB memorandum M-07-19 requires the agency’s IG to complete the OMB FISMA Reporting
Template for IGs. That template, along with any additional narrative the IG believes would
provide meaningful insight into the status of the agency’s security or privacy program, is
submitted to OMB as part of the agency’s annual FISMA report.

Richard S. Carson and Associates, Inc. (Carson Associates), performed an independent
evaluation of NRC’s implementation of FISMA for FY 2007. This report presents the results of
that independent evaluation. Carson Associates also prepared the OMB FISMA Reporting
Template for IGs, along with additional narrative, for inclusion in the agency’s annual FISMA
report. The OMB FISMA Reporting Template for IGs and the additional narrative is included as
Appendix D to this report.

This report reflects the status of the agency’s information system security program as of the
completion of fieldwork on August 17, 2007. Any information received from the agency
subsequent to the completion of fieldwork was incorporated when possible.

2          Purpose

The objective of this review was to perform an independent evaluation of NRC’s implementation
of FISMA for FY 2007. Appendix A contains a description of the evaluation scope and
methodology.

3          Findings

Over the past 5 years, NRC has made improvements to its information system security program,
and continues to make progress in implementing the recommendations resulting from previous
FISMA evaluations. To correct weaknesses identified by the FY 2005 and FY 2006 FISMA
independent evaluations by the OIG, and to address findings from the agency’s own evaluations,
the agency has refocused its information system security program. Under the refocused
program, the agency proposed performing certification and accreditation of systems that are a
high priority from a mission perspective and others that potentially pose a higher security risk
(e.g., agency systems that communicate with systems outside the NRC network). The first


2
    The Federal Information Security Management Act of 2002 was enacted on December 17, 2002, as part of the E-
    Government Act of 2002 (Public Law 107-347), and replaces the Government Information Security Reform Act,
    which expired in November 2002.


                                                         1
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2007


certification and accreditation schedule under the refocused program was issued in February
2006. This schedule has changed several times since February 2006.

The security certification and accreditation of information systems is integral to an agency’s
information security program and is an important activity that supports the risk management
process required by FISMA. Section 3.7 of this report provides an in-depth discussion of the
certification and accreditation process and its significance to an agency’s information security
program.

The first phase of the refocused program also included the development of a new certification
and accreditation process, which has been finalized. The agency has finalized the templates for
all certification and accreditation documents as well as instructions for completing the templates.
The updated certification and accreditation process was also integrated into the agency’s new
project management methodology.

The agency has also accomplished the following since the FY 2006 FISMA independent
evaluation:

   •   As required by FISMA, NRC performed annual testing and evaluation (also referred to as
       self-assessment) of the security controls for 28 of the agency’s 30 operational systems.
       As the other two agency operational systems were just certified and accredited in FY
       2007, the agency did not perform an additional self-assessment of those systems as
       permitted by OMB and NIST guidance.
   •   The agency updated security plans for 5 of the agency’s 30 operational systems.
       Subsequent to the completion of fieldwork, the agency provided an updated security plan
       for another system.
   •   The agency completed the consolidation and reconciliation of data from NRC
       information systems inventory systems and created a new centralized system for tracking
       NRC information systems.
   •   The agency has developed policies, procedures, and a template for conducting PIAs.
   •   The agency has made significant progress in implementing the provisions of OMB
       memorandum M-06-15, as well as subsequent memoranda issued by OMB regarding
       privacy and the protection of PII.

However, even with the new certification and accreditation process, the refocused information
system security program, and the award of a multi-year, multi-million dollar contract to provide
the agency with consolidated information system security services, the agency has completed
certification and accreditation of only two agency systems and one contractor system for which
the agency has direct oversight in the past 2 years. In the meantime, the certifications and
accreditations for all of the agency’s remaining 28 operational systems have expired.

The following significant deficiencies were identified in NRC’s information system security
program. These significant deficiencies were also identified in the FY 2006 FISMA independent
evaluation, and were reported as findings in the FY 2005 FISMA independent evaluation.




                                                 2
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2007


   •   Only 2 of the 30 operational NRC information systems have a current certification and
       accreditation, and only 4 of the 11 systems used or operated by a contractor or other
       organization on behalf of the agency have a current certification and accreditation.
       Subsequent to the completion of fieldwork, the agency completed certification and
       accreditation of one of the contractor systems for which they have direct oversight, and
       the system was granted an ATO. Two additional agency systems have also been certified
       and are currently under review by the agency’s designated approving authority for
       consideration of an ATO.
   •   Annual contingency plan testing is still not being performed for all systems.

The independent evaluation also identified 12 information system security program weaknesses.
Five are repeat findings from the FY 2005 and FY 2006 FISMA independent evaluations, and
seven are new.

   •   Security categorizations for some systems do not consistently reflect the information
       types that reside on the systems (new finding).
   •   The majority of NRC major applications and general support systems have not been
       categorized in accordance with Federal Information Processing Standards (FIPS)
       Publication 199, Standards for Security Categorization of Federal Information and
       Information Systems (repeat finding).
   •   The agency did not follow OMB and NIST guidance when conducting its annual self-
       assessments (new finding).
   •   Self-assessments were not always based on approved security categorizations (new
       finding).
   •   Self-assessments contained errors and inconsistencies (new finding).
   •   The agency does not maintain documentation that demonstrates systems provided by
       other Federal agencies meet FISMA requirements (repeat finding).
   •   Oversight of other contractor systems is lacking (repeat finding).
   •   The agency’s methodology is flawed for identifying which listed systems reside on the
       NRC network and which do not (new finding).
   •   The quality of the agency’s POA&Ms needs improvement (new finding).
   •   The agency’s certification and accreditation process is inconsistent with NIST guidance
       (new finding).
   •   The agency lacks procedures for ensuring employees with significant information
       technology (IT) security responsibilities receive security training (repeat finding).
   •   E-authentication risk assessments have not been completed (repeat finding).

The following sections present the detailed findings from the independent evaluation. As stated
previously, two findings are significant deficiencies, seven findings are new, and five are repeat
findings from previous FISMA independent evaluations. The following sections are organized
based on the OMB FISMA Reporting Template for IGs, which can be found in Appendix D of
this report. Each major section corresponds to a question or set of questions from the template.
Findings are presented in the sections to which they are relevant.


                                                 3
                                                                                           Independent Evaluation of
                                                                            NRC’s Implementation of FISMA for FY 2007




3.1       FISMA Systems Inventory

Agency Systems

                                 OMB Requirement                                               OIG Response
    1. As required in FISMA, the IG shall evaluate a representative subset                 See Table 3-1 below.
    of systems used or operated by an agency or by a contractor of an
    agency or other organization on behalf of an agency. Identify the
    number of agency and contractor information systems, and the number
    reviewed, by component/bureau and FIPS 199 system impact level
    (high, moderate, low, or not categorized) (a., b., and c.).
    1.a. Agency Systems.

          Table 3-1. Total Number of Agency Systems by FIPS 199 Risk Impact Level
                                FIPS 199 Risk             Total             Number
                                Impact Level             Number            Reviewed
                                      High                    4                 0
                                   Moderate                   11                1
                                      Low                     0                 0
                               Not Categorized                15                0
                                      Total                   30                1

NRC has a total of 303 operational systems that fall under FISMA reporting requirements.4 Of
the 30, 17 are general support systems,5 and 13 are major applications.6 As required by FISMA,
Carson Associates selected a subset of NRC systems for evaluation during the FY 2007 FISMA
independent evaluation. However, only one of the three systems that were selected had a current
certification and accreditation. While an additional system completed certification and
accreditation in July 2007, it was after the cutoff date established at the entrance conference, and
was therefore not considered for evaluation. As there were no other systems with a current
certification and accreditation to consider for evaluation, Carson Associates evaluated only one
agency system for the FY 2007 FISMA independent evaluation.


3
  The agency reports 31 operational systems. The OIG disagrees with the agency that an OIG system is a major
  application. It has been categorized as a listed system since it began operations in 2004. This designation is
  presently under a detailed review. Therefore, the metrics in this report reflect a total of 30 operational systems.
4
  NRC also has a number of major applications and general support systems currently in development. For FISMA
  reporting purposes, only operational systems are considered.
5
  A general support system is an interconnected set of information resources under the same direct management
  control that share common functionality. Typical general support systems are local and wide area networks,
  servers, and data processing centers.
6
  A major application is a computerized information system or application that requires special attention to security
  because of the risk and magnitude of harm that would result from the loss, misuse, or unauthorized access to or
  modification of the information in the application.


                                                          4
                                                                             Independent Evaluation of
                                                              NRC’s Implementation of FISMA for FY 2007


A current certification and accreditation is needed to perform a system evaluation because it
contains a description of the current security controls that are in place or are planned for a
system. This information is found in the system’s security plan, which is a part of a system’s
certification and accreditation package. An understanding of whether the security controls that
are in place are operating as intended, as well as any risk associated with operating the system
with the described security controls, is also necessary for performing a system evaluation. This
information is also found in the system’s certification and accreditation package.

Contractor Systems

                         OMB Requirement                                      OIG Response
 1. As required in FISMA, the IG shall evaluate a representative       See Table 3-2 below.
 subset of systems used or operated by an agency or by a
 contractor of an agency or other organization on behalf of an
 agency. Identify the number of agency and contractor information
 systems, and the number reviewed, by component/bureau and
 FIPS 199 system impact level (high, moderate, low, or not
 categorized) (a., b., and c.).
 1.b. Contractor Systems.

      Table 3-2. Total Number of Contractor Systems by FIPS 199 Risk Impact Level
                           FIPS 199 Risk        Total          Number
                           Impact Level        Number         Reviewed
                               High                 0             0
                             Moderate               4             0
                               Low                  1             0
                         Not Categorized            6             0
                               Total                11            0

NRC has a total of 11 systems operated by a contractor or other organization on behalf of the
agency (8 major applications and 3 general support systems). Of the 11, 6 are operated by other
Federal agencies, 2 are operated by federally funded research and development centers, and 3 are
operated by private contractors. NRC is responsible for direct oversight for four of these
systems. Oversight of the remaining seven systems is the responsibility of the Federal agency
operating the system. Therefore, the OIGs of those agencies would be responsible for evaluating
those systems.

As required by FISMA, Carson Associates selected a subset of the contractor systems for which
NRC is responsible for direct oversight for evaluation during the FY 2007 FISMA independent
evaluation. However, the system selected did not have a current certification and accreditation,
and none of the other contractor systems for which NRC is responsible for direct oversight had a
current certification and accreditation. Therefore, Carson Associates did not evaluate any
contractor systems for the FY 2007 FISMA independent evaluation.



                                                5
                                                                                            Independent Evaluation of
                                                                             NRC’s Implementation of FISMA for FY 2007


Security Categorization – Background

FIPS 199 requires all Federal agencies to categorize their information systems as low-impact,
moderate-impact, or high-impact for the security objectives of confidentiality, integrity, and
availability. The security categorization of an information system is conducted by first
categorizing all information types7 resident on the information system. The security category of
an information type is established by determining the potential impact (i.e., low, moderate, high)
for each security objective (i.e., confidentiality, integrity, availability) associated with the
particular information type. For example, an organization managing public information on its
Web server determines that there is no potential impact from a loss of confidentiality (i.e.,
confidentiality requirements are not applicable), a moderate potential impact from a loss of
integrity, and a moderate potential impact from a loss of availability.

The security categorization of an information system must take into account the security
categories of all information types resident on the information system being categorized. For an
information system, the potential impact values assigned to the respective security objectives are
the highest values (i.e., high water mark) from among the security categories that have been
determined for each information type resident on the information system.

Since the potential impact values for confidentiality, integrity, and availability may not always
be the same for a particular information system, the high water mark concept must be used to
determine the overall impact level of the information system. Thus, a low-impact system is an
information system in which all three of the security objectives are low. A moderate-impact
system is an information system in which at least one of the security objectives is moderate and
no security objective is greater than moderate. And finally, a high-impact system is an
information system in which at least one security objective is high. Therefore, the information
system used in the above example would be considered a moderate-impact system.

The determination of information system impact levels must be accomplished prior to the
consideration of minimum security requirements and the selection of appropriate security
controls for those information systems.

FINDING A – Security Categorizations for Some Systems Do Not Consistently Reflect the
Information Types that Reside on the Systems (New Finding)

Carson Associates reviewed the security categorizations for 9 agency systems and 3 contractor
systems and found that 4 do not consistently reflect the information types that reside on the
systems. As a result, the overall impact levels of these information systems may not reflect the
impact to the agency should there be a breach of security (i.e., a loss of confidentiality, integrity,
or availability).




7
    Information is categorized according to its information type. An information type is a specific category of
    information (e.g., privacy, medical, proprietary, financial, investigative, contractor sensitive, security
    management) defined by an organization or, in some instances, by a specific law, Executive order, directive,
    policy, or regulation.


                                                            6
                                                                                           Independent Evaluation of
                                                                            NRC’s Implementation of FISMA for FY 2007


The NIST Special Publication (SP) 800-60, Guide for Mapping Types of Information and
Information Systems to Security Categories, Volume I, describes the following methodology for
identifying information types when conducting a security categorization:

      •    Identify the fundamental business areas (management and support) or mission areas
           (mission-based) supported by the system under review.
      •    Identify for each business or mission area the areas of operations or lines of business that
           describe the purpose of the system in functional terms.
      •    Identify the sub-functions necessary to carry out each area of operation or line of
           business.
      •    Select the basic information types associated with the identified sub-functions.
      •    Where appropriate, identify any information type processed by the system that is required
           by statute, Executive order, or agency regulation to receive special handling.

To determine the primary information types that reside on the systems for which security
categorizations were reviewed, Carson Associates reviewed the agency’s Exhibit 538 for FY
2007. Carson Associates found that the security categorizations for four systems did not reflect
the primary business area, primary line of business, and/or primary sub-function of those systems
as indicated on the Exhibit 53. Table 3-3 below shows a comparison of the primary information
type indicated on the Exhibit 53 with the information types found in the security categorizations
for the four systems.

            Table 3-3. Primary Information Type Comparison – Exhibit 53 and Security
                                         Categorization
                    Primary Information Type
      System                                              Information Types in Security Categorization
                          in Exhibit 53
                    Catastrophic Defense              Disaster Monitoring and Prediction, IT Security,
     System 1
                                                      Environmental Monitoring and Forecasting
                    Catastrophic Defense              Customer Services, Official Information
                                                      Dissemination, IT Security, Record Retention,
                                                      Information Management, Disaster Monitoring
     System 2
                                                      and Prediction, Disaster Preparedness and
                                                      Planning, Environmental Monitoring and
                                                      Forecasting
                    Information Management            Scientific and Technical Research and Innovation,
     System 3
                                                      Research and Development, IT Security
                    Corrective Action                 Program Evaluation, Program Monitoring, Budget
                                                      Formulation, Strategic Planning, Management
     System 4                                         Improvement, Official Information Dissemination,
                                                      Inspections and Auditing, Standards
                                                      Setting/Reporting Guideline Development

8
    The Exhibit 53 is used by agencies to report their IT investment portfolio annually to OMB. The Exhibit 53
    provides budget estimates for all IT investments and identifies those that are major investments.


                                                           7
                                                                                Independent Evaluation of
                                                                 NRC’s Implementation of FISMA for FY 2007




If the security categorizations do not reflect the information types that reside on the systems, the
overall impact levels of these information systems may not reflect the impact to the agency
should there be a breach of security (i.e., a loss of confidentiality, integrity, or availability).

RECOMMENDATION

   The Office of the Inspector General recommends that the Executive Director for Operations:

   1. Review and correct as needed all security categorizations so that they consistently reflect
      the information types that reside on the systems.

FINDING B – Majority of NRC Major Applications and General Support Systems Have Not
Been Categorized in Accordance With FIPS 199 (Repeat Finding)

This is a repeat finding from the FY 2005 and FY 2006 FISMA independent evaluations. As
stated previously, FIPS 199 requires all Federal agencies to categorize their information systems.
However, despite this requirement, the majority of NRC major applications and general support
systems still have not been categorized in accordance with FIPS 199. Specifically, only 15 of the
30 operational NRC information systems have been categorized. Only 5 of the 11 contractor
systems have been categorized.

In FY 2007, the agency completed only three additional security categorizations for NRC
systems, updated the security categorization for another system, and completed four additional
security categorizations for contractor systems. According to the agency, the target date for
completing all system security categorizations was August 15, 2007. This target date was not
met.

Without security categorizations for all agency and contractor systems, the agency cannot
effectively determine minimum security requirements and select appropriate security controls for
their information systems as defined in NIST SP 800-53 Revision 1, Recommended Security
Controls for Federal Information Systems. In addition, the agency cannot be assured it is using
the correct minimum security control baseline from NIST SP 800-53 when performing its annual
security control testing and review. The security categorization is also needed to effectively
implement several Federal and OMB initiatives.

RECOMMENDATION

   The Office of the Inspector General recommends that the Executive Director for Operations:

   2. Categorize all NRC major applications and general support systems in accordance with
      FIPS 199. This recommendation replaces recommendation #1 from OIG-05-A-21,
      Independent Evaluation of NRC’s Implementation of FISMA for Fiscal Year 2005.




                                                  8
                                                                             Independent Evaluation of
                                                              NRC’s Implementation of FISMA for FY 2007


3.2    Certification and Accreditation, Security Controls Testing, and Contingency
       Plan Testing

3.2.1 Certification and Accreditation

                            OMB Requirement                                      OIG Response
 2. For the total number of systems reviewed by component/bureau and          See Table 3-3 below
 FIPS system impact level for Question 1, identify the number and             (NOTE: the metrics
 percentage of systems which have: a current certification and                represent the status
 accreditation, security controls tested and reviewed within the past         for all NRC systems,
 year, and a contingency plan tested in accordance with policy.               not just the subset
 2.a. Number of systems certified and accredited.                             that was chosen for
                                                                              evaluation in FY
                                                                              2007).

 Table 3-3. Number of Systems Certified and Accredited by FIPS 199 Risk Impact Level
                   FIPS 199 Risk
                                        Agency        Contractor        Total
                   Impact Level
                        High               1              0               1
                     Moderate              1              4               5
                        Low                0              1               1
                  Not Categorized          0              0               0
                       Total               2              5               7

This section reports on the number of agency and contractor systems with a current certification
and accreditation. Section 3.7 of this report discusses the assessment of the agency’s
certification and accreditation process in detail.

FINDING C – The Majority of NRC Systems Are Not Certified and Accredited (Repeat
Significant Deficiency)

As in FY 2005 and FY 2006, Carson Associates found that the majority of NRC systems are not
certified and accredited. Only 2 of the 30 operational NRC information systems have a current
certification and accreditation. Of the 11 systems operated by a contractor or other organization
on behalf of the agency, only 4 have a current certification and accreditation. These four systems
are operated by other Federal agencies. Of the remaining seven, two are operated by other
Federal agencies, two are operated by federally funded research and development centers, and
three are operated by private contractors. Subsequent to the completion of fieldwork, the agency
completed certification and accreditation of one of the contractor systems for which they have
direct oversight, and the system was granted an ATO. Two additional agency systems have also
been certified and are currently under review by the agency’s designated approving authority for
consideration of an ATO.




                                                 9
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2007


OMB defines a significant deficiency as “a weakness in an agency’s overall information systems
security program or management control structure, or within one or more information systems
that significantly restricts the capability of the agency to carry out its mission or compromises
the security of its information, information systems, personnel, or other resources, operations, or
assets.” OMB Circular A-130, Management of Federal Resources, Appendix III, Security of
Federal Automated Information Resources, provides three specific examples of a significant
deficiency, each of which must be reported as such – (1) the failure to assign responsibility for
security of the system or application, (2) the lack of a system security plan, and (3) the absence
of authorization to process (certification and accreditation).

In accordance with OMB requirements, it constitutes a significant deficiency that only 2 of the
30 operational NRC information systems have a current certification and accreditation and only
5 of the 11 systems used or operated by a contractor or other organization on behalf of the
agency have a current certification and accreditation. This deficiency is not a recent problem.
The agency has made little progress in correcting the deficiency. The agency has completed
certification and accreditation of only two agency major applications and one contractor system
for which the agency has direct oversight in the past 2 years. According to the agency,
certification and accreditation of all agency systems is not expected to be completed until the end
of FY 2009.

3.2.2 Security Control Test and Evaluation

                            OMB Requirement                                       OIG Response
 2. For the total number of systems reviewed by component/bureau and           See Table 3-4 below.
 FIPS system impact level for Question 1, identify the number and
 percentage of systems which have: a current certification and
 accreditation, security controls tested and reviewed within the past
 year, and a contingency plan tested in accordance with policy.
 2.b. Number of systems for which security controls have been tested
 and reviewed in the past year.

Table 3-4. Number of Systems With Tested and Evaluated Security Controls by FIPS 199
                                 Risk Impact Level
                   FIPS 199 Risk
                                         Agency       Contractor         Total
                   Impact Level
                        High                4              0               4
                      Moderate             11              2              13
                        Low                 0              1               1
                  Not Categorized          15              3              18
                        Total              30              6              36




                                                10
                                                                                          Independent Evaluation of
                                                                           NRC’s Implementation of FISMA for FY 2007


FISMA requires that the management, operational, and technical controls9 in agency systems be
tested with a frequency depending on risk, but not less than annually. NRC meets this
requirement by performing annual self-assessments of the security controls of all agency and
contractor systems. The purpose of the self-assessment is to assess the security controls in an
information system to determine the extent to which the controls are implemented correctly,
operating as intended, and producing the desired outcome with respect to meeting the security
requirements for the system.

NRC performed self-assessments of the security controls for 28 of the agency’s 30 operational
systems. The agency chose not to perform a self-assessment of the OIG system discussed
earlier, as that system’s status as a major application is still under determination. As the other
two agency operational systems were just certified and accredited in FY 2007, the agency did not
perform an additional self-assessment of those systems as permitted by OMB and NIST
guidance. The agency also included the physical and environmental controls of the four NRC
regional offices and the NRC Technical Training Center in one self-assessment.

NRC is required to perform self-assessments only on those contractor systems for which it has
direct oversight. Self-assessments for the remaining contractor systems are the responsibility of
the Federal agencies that operate those systems. NRC performed a self-assessment of one of the
four contractor systems for which it has direct oversight. As two of the four contractor systems
for which NRC has direct oversight are considered to be sub-components of the NRC
LAN/WAN, only the physical and environmental controls and the personnel security controls
were evaluated for these systems. The results were incorporated into the self-assessment for one
of the agency’s general support systems. The fourth contactor system for which the agency has
direct oversight was expected to be certified and accredited in FY 2007, so the agency did not
conduct a separate self-assessment for this system. However, the certification and accreditation
was not expected to be completed prior to the submission of this report, so it was not originally
included in the total number of contractor systems for which security controls have been tested
and evaluated in the past year. Subsequent to the completion of fieldwork, the agency completed
certification and accreditation of this system, and the system was granted an ATO.

For the seven contractor systems that are operated by other Federal agencies, NRC’s policy is to
confirm with the owner agencies that annual security control testing and evaluation has been
completed. As two of the Federal contractor systems were just certified and accredited in FY
2007, these two systems were included in the total number of contractor systems for which
security controls have been tested and evaluated. The agency has not obtained confirmation
from the owner agencies of the other five contractor systems operated by other Federal agencies
that annual security control testing and evaluation has been completed. Subsequent to the
completion of fieldwork, the agency provided a certification memorandum for one of the Federal
contractor systems that indicates security control testing and evaluation for the system was
completed in FY 2007. However, the agency could not demonstrate that this system has been

9
    Management controls are the safeguards or countermeasures that focus on the management of risk and the
    management of information system security. Operational controls are the safeguards or countermeasures that
    primarily are implemented and executed by people (as opposed to systems). Technical controls are the safeguards
    or countermeasures that are primarily implemented and executed by the information system through mechanisms
    contained in the hardware, software, or firmware components of the system.


                                                          11
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2007


accredited (and therefore, that the designated approving authority for that system approved the
testing and evaluation). Therefore, it was not included in the total number of contractor systems
for which security controls have been tested and evaluated in the past year. As discussed later in
Section 3.3 of this report, the FY 2005 and FY 2006 FISMA independent evaluation found that
the agency does not maintain documentation that demonstrates that systems provided by other
Federal agencies meet FISMA requirements.

The agency provided the majority of the self-assessments after the cutoff date established at the
entrance conference, giving us only enough time to perform a cursory review. However, even a
cursory review found that (1) the agency did not follow OMB and NIST guidance for conducting
its annual security control assessments, (2) self-assessments were not always based on approved
security categorizations, and (3) self-assessments contained errors and inconsistencies.

Security Control Test and Evaluation – Background

FISMA (section 3544(b)(5)) requires each agency to perform for all systems (including those
operated by a contractor or other organization on behalf of an agency) “periodic testing and
evaluation of the effectiveness of information security policies, procedures, and practices, to be
performed with a frequency depending on risk, but not less than annually.” This review shall
include the testing of management, operational, and technical controls, and is also referred to as a
self-assessment.

The FY 2006 FISMA guidance stated that for FY 2007 and beyond, agencies will be required to
use FIPS 200, Minimum Security Requirements for Federal Information and Information
Systems, and NIST SP 800-53 for the specification of security controls, and NIST SP 800-53A,
Guide for Assessing the Security Controls in Federal Information Systems, for the annual
assessment of security control effectiveness. After FY 2006, NIST SP 800-26, Security Self-
Assessment Guide for Information Technology Systems, is not to be used for the specification
and/or assessment of security controls. This requirement was reiterated in the FY 2007 FISMA
guidance, issued July 25, 2007.

In February 2007 (updated in May 2007), NIST issued a memorandum for the record stating that
after the final release of NIST SP 800-53A in FY 2007 (tentatively scheduled for December
2007), NIST plans to rescind NIST SP 800-26. The memorandum also reiterated OMB’s
statement that for FY 2007 and beyond, agencies will be required to use NIST SP 800-53A for
the assessment of security control effectiveness. Attached to the memorandum is a security
controls assessment form, which replaces the form contained in NIST SP 800-26, and provides a
standard methodology for capturing the results of system-level security control assessments. The
form will be incorporated into the final release of NIST SP 800-53A. The memorandum stated
that agencies may use the attached form to support security controls assessment requirements for
FY 2007. The third public draft of NIST SP 800-53A was issued June 4, 2007.

FINDING D – The Agency Did Not Follow OMB and NIST Guidance When Conducting Its
Annual Self-Assessments (New Finding)

Despite the requirement to use NIST SP 800-53A for the annual assessment of security control
effectiveness, the agency conducted the FY 2007 self-assessments by using the approach of


                                                 12
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2007


measuring progress by levels of effectiveness, as described in NIST SP 800-26. The agency also
chose to use the self-assessment report format from NIST SP 800-26. The agency’s
methodology did not include all testing methods required by NIST SP 800-53A. As a result, the
agency cannot be certain that all controls are operating as intended.

The agency’s self-assessment methodology included the following activities:

   •   Sending a brief questionnaire to system owners to validate the system identification
       information and to request documents needed to support the self-assessment process.
   •   Reviewing existing documentation.
   •   If needed, sending additional questions to system owners.
   •   Interviewing system owners (some self-assessments were conducted without interviewing
       system owners).

The agency’s security control assessment methodology is hierarchical and is based on the
methodology described in NIST SP 800-26. The NIST SP 800-26 methodology comprises five
levels to guide agency assessments. Level 1 indicates that there are policies in place for the
security controls. Level 2 indicates that there are documented procedures for implementing the
policies and the security controls. Level 3 indicates that the procedures and the security controls
have been implemented. Level 4 indicates that procedures and controls are tested and reviewed.
Finally, Level 5 indicates that procedures and controls are fully integrated into a comprehensive
information system security program. Using the agency’s methodology, if a control did not meet
the requirements of a particular level, then the testing and evaluation of that control ended. For
example, if a control had policies, but no procedures, then the implementation of that control
was, in most cases, never evaluated, even if the control was actually implemented.

The security control assessment methodology described in NIST SP 800-53A is not hierarchical.
NIST SP 800-53A describes three methods for assessing security controls: examine, interview,
and test. These assessment methods are used to determine whether a particular security control
is operating as intended (i.e., is the control implemented correctly, being used as intended, and
producing the intended outcome with respect to meeting the security requirements for the
information system). Control effectiveness is measured as satisfied, partially satisfied, or not
satisfied. Satisfied indicates that the portion(s) of the security control being addressed by the
procedural statement are operating as intended. Partially satisfied indicates that some portion(s)
of the security control being addressed by the procedural statement are operating as intended, but
other portions are not. Not satisfied indicates that the portion(s) of the security control being
addressed by the procedural statement are not operating as intended. Using this methodology, a
control without policies and/or procedures could still be found to be partially satisfied if the
control was actually implemented as intended.

NIST SP 800-53A includes an assessment procedure catalog that specifies which assessment
methods should be used to evaluate a particular security control. All assessment methods
specified for a control in the assessment catalog are expected to be completed. For example, for
the physical and environmental control PE-3 ( physical access control), NIST SP 800-53A



                                                13
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2007


specifies that for a moderate-impact system, all three assessment methods – examine, interview,
and test – should be used to test this control.

The agency’s methodology included two of the assessment methods described in NIST SP 800-
53A – examine and interview. However, due to the hierarchical nature of its process, not all of
the assessment methods specified in the NIST SP 800-53A assessment catalog were performed
for each control. Continuing with the PE-3 control example, the agency did not perform the test
assessment method specified by NIST SP 800-53A for this control for the agency’s remote
locations. The agency stated that the physical and environmental controls for these locations had
only policies in place (Level 1). Therefore, site visits were not necessary as they would be
needed only to test the implementation (Level 3) of the control. Because the implementation of
these controls was never tested, it is not possible to determine if the Level 1 effectiveness means
there are no procedures and the control is not implemented, or if the control is implemented, but
because there were no procedures, its implementation was never tested. As a result of the
incomplete testing, the agency cannot be certain that all controls are operating as intended.

RECOMMENDATION

   The Office of the Inspector General recommends that the Executive Director for Operations:

   3. Conduct annual self-assessments in accordance with current OMB and NIST guidance.

FINDING E – Self-Assessments Were Not Always Based on Approved Security
Categorizations (New Finding)

Carson Associates also found that self-assessments for 15 of the agency’s 30 operational
systems, and for 3 contractor systems were not based on an approved security categorization. As
stated previously in Section 3.1 of this report, security categorizations are necessary to (1)
determine the appropriate set of minimum security controls to implement for a system, and (2)
identify the correct minimum security control baseline from NIST SP 800-53 to use when
performing annual security control testing and review.

In some cases, we found that the impact levels for confidentiality, integrity, and availability
noted on these self-assessments differed from the impact levels on the FY 2006 self-assessments,
yet there is no explanation for the differences. For example, one system was evaluated against
the low-impact security control baseline in FY 2007, but was evaluated against the moderate-
impact security control baseline in FY 2006. Another system was evaluated against the high-
impact security control baseline in FY 2006, but was evaluated against the moderate-impact
security control baseline in FY 2007. Self-assessments that are not based on an approved
security categorization may not be evaluating the appropriate set of controls. As a result, the
agency cannot be certain that all controls are operating as intended.




                                                14
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2007


RECOMMENDATION

   The Office of the Inspector General recommends that the Executive Director for Operations:

   4. For self-assessments conducted on systems without an approved security categorization,
      include an explanation as to how the impact levels for confidentiality, integrity, and
      availability were determined. This explanation should also include a discussion of any
      changes to the impact levels (if any) from the previous year’s self-assessment.

FINDING F – Self-Assessments Contained Errors and Inconsistencies (New Finding)

Carson Associates also found the following errors and inconsistencies in the FY 2007 self-
assessments:

   •   The blank self-assessment (template) for the moderate-impact baseline and all moderate-
       impact self-assessments are missing control identification and authentication control IA-
       2, enhancement 1.
   •   The blank self-assessment (template) for the high-impact baseline and all high-impact
       self-assessments include system and information integrity control SI-4, enhancement 1.
       This control is not part of the high-impact baseline.
   •   The self-assessment for one system with an approved security categorization has risk
       assessment control RA-2 (security categorization) incorrectly marked at Level 2
       (procedures) when it should be marked at Level 3 (implemented).
   •   The self-assessments for six systems without approved security categorizations have
       control RA-2 incorrectly marked at Level 3 (implemented) when it should be marked at
       Level 2 (procedures).
   •   The self-assessment for one system with a POA&M has certification, accreditation, and
       security assessments control CA-5 (POA&M) incorrectly marked at Level 2
       (procedures), when it should be marked at Level 3 (implemented).
   •   The section of the self-assessment that lists connected systems is inaccurate or
       incomplete for several systems.

As a result of the errors and inconsistencies, the agency cannot be certain that all controls are
operating as intended, and cannot be certain that the self-assessments reflect the actual security
status of the systems.

RECOMMENDATION

   The Office of the Inspector General recommends that the Executive Director for Operations:

   5. Develop and implement quality assurance procedures for self-assessments.




                                                 15
                                                                                               Independent Evaluation of
                                                                                NRC’s Implementation of FISMA for FY 2007


3.2.3 Contingency Planning and Testing

                                     OMB Requirement                                                OIG Response
 2. For the total number of systems reviewed by component/bureau and                             See Table 3-5 below.
 FIPS system impact level for Question 1, identify the number and
 percentage of systems which have: a current certification and
 accreditation, security controls tested and reviewed within the past
 year, and a contingency plan tested in accordance with policy.
 2.c. Number of systems for which contingency plans have been tested
 in accordance with policy.

 Table 3-5. Number of Systems With Tested Contingency Plans by FIPS 199 Risk Impact
                                      Level10
                           FIPS 199 Risk
                                                    Agency           Contractor            Total
                           Impact Level
                                High                    0                 0                  0
                             Moderate                   5                 2                  7
                                Low                     0                 0                  0
                         Not Categorized                0                 0                  0
                                Total                   5                 2                  7

NIST SP 800-34, Contingency Planning Guide for Information Technology Systems, states that
contingency plans should be tested at least annually and when significant changes are made to
the information system, supported business process(s), or the contingency plan. Management
Directive (MD) and Handbook 12.5, NRC Automated Information Security Program, states that
the NRC shall comply with the NIST guidance to include guidance related to the preparation of
security documentation (such as system security plans, IT risk assessments, and IT contingency
plans), and other applicable NIST automated information security guidance for IT security
processes, procedures, and testing. MD 12.5 also states that IT contingency plans for major
applications and general support systems shall be tested each year. A live test provides the best
indication of the adequacy of a contingency plan test. If a live test cannot be conducted due to
operational constraints, a simulated test may be conducted in lieu of the live test. Information
System Security (ISS) Security Procedure ISS-00-001, Revision 0, Annual Update of System
Security Documentation for Automated Information Systems, dated March 1, 2006, also requires
annual contingency plan testing for all major applications and general support systems, including
the generation of a contingency plan test report.




10
      Any testing performed between October 1, 2006, and the completion of fieldwork, would be considered as FY
     2007 test results. The testing itself must have occurred in that time frame. If the testing occurred prior to October
     1, 2006, but the report was not submitted to/approved by the agency until after October 1, 2006, it would still be
     considered an FY 2006 test, and not an FY 2007 test. Only testing that is supported by a submitted and approved
     report will be counted.


                                                             16
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2007


FINDING G – Annual Contingency Plan Testing Is Still Not Being Performed For All
Systems (Repeat Significant Deficiency)

This is a repeat finding from the FY 2005 and FY 2006 FISMA independent evaluations.
Despite the requirement that contingency plans should be tested at least annually, only 5 of the
agency’s 30 operational information systems, and 1 of the agency’s contractor systems, had its
contingency plan tested in FY 2007. Subsequent to the completion of fieldwork, the agency
provided documentation demonstrating that contingency plan testing was conducted for another
contractor system; however, the agency has not yet received the test results report.

As a result, the agency has limited assurance that it will be able to recover mission-critical
applications, business processes, and information in the event of an unexpected interruption.
Even a minor interruption could result in lost or incorrectly processed data if the contingency
plan has not been tested.

In FY 2005, a recommendation was made to develop and implement procedures to ensure
contingency plans are tested annually, regardless of the status of a system’s certification and
accreditation. At the end of October 2006, the agency reported to the Commission that the
Office of Information Services (OIS) would provide support to system owners (1) to complete
the requirement to update their system’s contingency plan, (2) to perform a contingency test in
accordance with the contingency plan, and (3) to report on the results of the contingency test by
June 1, 2007. However, in a November 2006, status update the agency stated that resources have
not been available to support completion of annual contingency plan testing (including test
reporting and contingency plan update) and that the target date for completing contingency plan
testing for all agency systems was August 1, 2007. This target date was not met, despite the
award of a consolidated information system security services contract in July 2006, which
includes supporting the offices in completion of contingency plan updates and testing. The 3rd
Quarter FY 2007 POA&M submitted to OMB has projected completion dates for contingency
plan testing as late as the 4th Quarter FY 2009.

The following is a summary of the status of contingency plan testing for the 25 operational NRC
systems that have not completed contingency plan testing in FY 2007:

   •   Five systems have never had their contingency plans tested.
   •   Two systems have never had their contingency plans tested, as they are new general
       support systems identified when the NRC local area network/wide area network
       (LAN/WAN) was divided into several general support systems. There is insufficient
       documentation to determine whether these systems were covered by previous LAN/WAN
       contingency plan tests.
   •   One system has not had its contingency plan tested in over 4 years.
   •   Thirteen systems have not had their contingency plans tested in over 3 years. Many of
       these systems are general support systems that were identified when the LAN/WAN was
       divided into several general support systems. There is insufficient documentation to
       determine whether these systems were fully covered by previous LAN/WAN contingency
       plan tests.



                                                17
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2007


   •   Two systems had their contingency plans tested in 2005.
   •   Two systems had their contingency plans tested in 2006; however, the agency never
       approved the results for one of those systems.

The following is a summary of the status of contingency plan testing for the nine contractor
systems that have not completed contingency plan testing in FY 2007:

   •   Five systems are operated by other Federal agencies. NRC is responsible only for
       confirming with the owner agency that annual contingency plan testing has been
       completed.
   •   Three systems have never had their contingency plans tested. While these are contractor
       systems, NRC is responsible for ensuring they have tested contingency plans.
   •   One system had its contingency plan tested in FY 2006.

See Appendix B of this report for details on the status of contingency plan testing for all agency
and contractor operational systems.

As stated previously, OMB defines a significant deficiency as “a weakness in an agency’s
overall information systems security program or management control structure, or within one or
more information systems that significantly restricts the capability of the agency to carry out its
mission or compromises the security of its information, information systems, personnel, or other
resources, operations, or assets.”

FISMA defines eight primary components of an agency’s information system security program,
including (1) annual testing of management, operational, and technical controls of every
information system identified in the agency’s inventory, and (2) plans and procedures to ensure
continuity of operations for information systems that support the operations and assets of the
agency.

The testing of contingency plans is a key element of the two information system security
program components described above. It is essential for determining whether plans will function
as intended in an emergency situation. Without testing, the agency has limited assurance that it
will be able to recover mission-critical applications, business processes, and information in the
event of an unexpected interruption. Even a minor interruption could result in lost or incorrectly
processed data if the contingency plan has not been tested.

In accordance with OMB requirements, the fact that the agency has failed to conduct annual
contingency plan testing for all systems for the past 3 years constitutes a significant deficiency.
This deficiency is not a recent problem and the agency has made little progress in correcting the
deficiency. According to the agency, completion of all contingency plan testing is not
anticipated for at least another 2 years.




                                                 18
                                                                                             Independent Evaluation of
                                                                              NRC’s Implementation of FISMA for FY 2007


RECOMMENDATION

       The Office of the Inspector General recommends that the Executive Director for Operations:

       6. Develop and implement procedures to ensure contingency plans are tested annually,
          regardless of the status of the systems’ certification and accreditation. This
          recommendation replaces recommendation #3 from OIG-05-A-21, Independent
          Evaluation of NRC’s Implementation of FISMA for Fiscal Year 2005.

3.3         Evaluation of Agency Oversight of Contractor Systems

                                     OMB Requirement                                              OIG Response
 3.a. The agency performs oversight and evaluation to ensure                                  Mostly (81-95% of
 information systems used or operated by a contractor of the agency or                        the time)
 other organization on behalf of the agency meet the requirements of
 FISMA, OMB policy and NIST guidelines, national security policy, and
 agency policy.

FISMA requires agencies to provide information security protections commensurate with the risk
and magnitude of harm resulting from unauthorized access, use, disclosure, disruption,
modification, or destruction of (1) information collected or maintained by or on behalf of the
agency and (2) information systems used or operated by an agency or other organization on
behalf of an agency.11

NRC has a total of 11 systems operated by a contractor or other organization on behalf of the
agency (8 major applications and 3 general support systems). Of the 11, 6 are operated by other
Federal agencies, 2 are operated by federally funded research and development centers, and 3 are
operated by contractors supporting the agency. NRC is responsible for direct oversight for four
of these systems. Oversight of the remaining seven systems is the responsibility of the Federal
agency operating the system.

FINDING H – Agency Does Not Maintain Documentation That Demonstrates Systems
Provided By Other Federal Agencies Meet FISMA Requirements (Repeat Finding)

As in FY 2005 and FY 2006, Carson Associates found that the agency is still not maintaining
documentation that demonstrates systems provided by other Federal agencies meet FISMA
requirements. As a result, the agency cannot be certain that the information security protections
in place for these systems are commensurate with the risk and magnitude of harm resulting from
unauthorized access, use, disclosure, disruption, modification, or destruction of the information
systems.

The agency has been working with the offices to assist in acquiring the required documentation
for systems provided by other Federal agencies. However, according to the agency, some of the

11
      Information systems used or operated by a contractor of an agency or other organization on behalf of the agency
     refers to information systems that the agency considers to be either major applications or general support systems.


                                                             19
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2007


other Federal agencies have been unwilling to provide documentation that demonstrates they
meet FISMA requirements. The other Federal agencies have also been unwilling to share copies
of their annual self-assessments or results from their annual contingency plan testing. The OIG
stated that a memorandum from the Federal agencies stating that annual self-assessments and
annual contingency plan testing have been completed would be sufficient to meet the intent of
the recommendations from the FY 2005 FISMA independent evaluation regarding this finding.
The agency is currently working towards obtaining such memoranda. As of September 1, 2007,
the agency had received certification and accreditation memoranda for only four of the seven
systems provided or operated by other Federal agencies. Due to the current focus on the
certification and accreditation phase of systems and scarcity of resources, the anticipated
completion date to receive the rest of the required documentation for systems provided or
operated by other Federal agencies is December 31, 2007.

RECOMMENDATION

   The Office of the Inspector General recommends that the Executive Director for Operations:

   7. Maintain documentation that demonstrates systems provided by other Federal agencies
      meet FISMA requirements. This recommendation replaces recommendations #4, #5, and
      #6 from OIG-05-A-21, Independent Evaluation of NRC’s Implementation of FISMA for
      Fiscal Year 2005.

FINDING I – Oversight of Other Contractor Systems Is Lacking (Repeat Finding)

As in FY 2005 and FY 2006, Carson Associates found that oversight of other contractor systems
still is lacking. Of the 11 systems operated by a contractor or other organization on behalf of the
agency, NRC has direct responsibility for oversight of four of these systems. The agency has
demonstrated proper oversight over only one of these systems. This system was issued an ATO
shortly after the completion of fieldwork for this report. Certification and accreditation for one
system is not scheduled to occur until the 1st Quarter FY 2008, and not until the 2nd Quarter FY
2009 for another system. The certification and accreditation for the third system has not been
scheduled to date. As a result, the agency cannot be certain that the information security
protections in place for these systems are commensurate with the risk and magnitude of harm
resulting from unauthorized access, use, disclosure, disruption, modification, or destruction of
the information systems.

In a November 2006 status update, the agency stated that it was in the process of developing
procedures for performing oversight of major applications and general support systems operated
by a contractor or other operation on behalf of the agency. The agency anticipated completion
and distribution of the procedures no later that December 29, 2006. In a subsequent update in
July 2007, the agency stated that the procedures could be found in Section 4.2 and 4.4 of ISS
Security Procedure ISS-00-001. While this document does describe the FISMA requirements for
contractor systems, the agency has failed to actually implement those requirements for three
contractor systems.




                                                20
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2007


RECOMMENDATION

      The Office of the Inspector General recommends that the Executive Director for Operations:

      8. Develop and implement procedures for performing oversight of major applications and
         general support systems operated by a contractor or other organization on behalf of the
         agency. This recommendation replaces recommendation #7 from OIG-05-A-21,
         Independent Evaluation of NRC’s Implementation of FISMA for Fiscal Year 2005.

3.4      Evaluation of Quality of Agency System Inventory

                             OMB Requirement                                       OIG Response
 3.b. The agency has developed a complete inventory of major                 Inventory is 81-95%
 information systems (including major national security systems)             complete
 operated by or under the control of such agency, including an
 identification of the interfaces between each such system and all other
 systems or networks, including those not operated by or under the
 control of the agency.
 3.c. The IG generally agrees with the Chief Information Officer (CIO)       Yes
 on the number of agency owned systems.
 3.d. The IG generally agrees with the CIO on the number of                  Yes
 information systems used or operated by a contractor of the agency or
 other organization on behalf of the agency.
 3.e. The agency inventory is maintained and updated at least                Yes
 annually.
 3.f. If the Agency IG does not evaluate the Agency’s inventory as 96-       N/A (none missing)
 100% complete, please identify the known missing systems by
 component/bureau, the Unique Project Identifier (UPI) associated
 with the system as presented in your FY2008 Exhibit 53 (if known),
 and indicate if the system is an agency or contractor system.

FISMA requires agencies to develop and maintain an inventory of major information systems
operated by or under control of the agency. The inventory must include an identification of the
interfaces between each such system and all other systems or networks, including those not
operated by or under the control of the agency. The inventory must be updated at least annually
and must also be used to support information resources management. MD and Handbook 12.5
also require all interfaces to be included in the inventory, including interfaces with systems or
networks not operated by or under the control of the agency.

While FISMA requires agencies to maintain an inventory only of major information systems
(major applications and general support systems), NRC also tracks two other system types in its
inventories – listed and other.




                                                 21
                                                                                              Independent Evaluation of
                                                                               NRC’s Implementation of FISMA for FY 2007


       •    Listed – a computerized information system or application that (1) processes sensitive
            information requiring additional security protections and (2) may be important to an NRC
            office’s or region’s operations, but which is not a major application or general support
            system when viewed from an agency perspective. Sensitive data may include individual
            Privacy Act information, law enforcement sensitive information, sensitive contractual
            and financial information, safeguards, and classified information. Listed systems would
            be considered minor applications using NIST terminology.12
       •    Other – an NRC system that does not require additional security protections and is
            adequately protected by the security provided by the NRC LAN/WAN.

To address findings from the FY 2005 FISMA independent evaluation regarding the agency’s
inventory, OIS developed a new centralized system for tracking NRC information systems. Data
from various databases were compared, and any differences were resolved. The new system was
then updated with data from biannual data calls, starting in September 2006. The new system
continues to be updated with subsequent data calls. The agency also developed several
procedures and guides to assist NRC offices with the biannual data call and to assist the agency
in maintaining the inventory data in the new system.

Carson Associates found small discrepancies between the inventory of major applications,
general support systems, and contractor systems reported in the metrics to OMB, and the actual
contents of the agency’s new inventory system. The agency has been made aware of these minor
discrepancies and is working to correct them. Carson Associates also found that the agency is
still in the process of populating the new inventory system with information on interfaces
between systems.

The agency is also still working to complete one recommendation from the FY 2006 FISMA
independent evaluation regarding the classification of the agency’s Network Continuity of
Operations (COOP) system. This system was categorized as a listed system, when it should have
been categorized as a general support system. The agency has incorporated the components of
the COOP system into existing infrastructure general support systems, and is no longer tracking
the COOP system as an individual system. The agency has updated the security categorization
documents for four general support systems to incorporate the appropriate COOP components,
but they have not all been approved by the Senior Agency Information Security Officer.

RECOMMENDATION

       The Office of the Inspector General recommends that the Executive Director for Operations:

       9. Complete the updates to the security categorizations of the general support systems into
          which the Network Continuity of Operations system components have been incorporated.
          This recommendation replaces recommendation #2 from OIG-06-A-26, Independent
          Evaluation of NRC’s Implementation of FISMA for Fiscal Year 2006.


12
     An application, other than a major application, that requires attention to security due to the risk and magnitude of
     harm resulting from the loss, misuse, or unauthorized access to or modification of the information in the
     application. Minor applications are typically included as part of a general support system.


                                                             22
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2007


FINDING J – Agency Methodology Is Flawed for Identifying Which Listed Systems Reside
On the NRC Network and Which Do Not (New Finding)

As stated previously, NRC tracks two other system types in its inventories – listed and other.
For the purposed of certification and accreditation, the agency further categorizes listed systems
as either networked (i.e., reside on the NRC network) or not networked (i.e., do not reside on the
NRC network – systems that stand alone, and/or process safeguards information or classified
data). The agency has different certification and accreditation requirements for listed systems
that reside on the NRC network and for listed systems that do not reside on the network.
However, the new inventory system does not provide a means to clearly distinguish which listed
systems reside on the NRC network and which do not. The new inventory system has fields that
are used to indicate the types of sensitive data processed by the system (e.g., safeguards
information, Confidential, Secret, Top Secret, etc.). These fields could be used to infer whether
or not a system resides on the network – that is, any system that processes these types of
sensitive data cannot reside on the network. However, if the information in these fields is
incorrect or incomplete, the agency has no other means of determining whether or not a listed
system resides on the network. As a result, the agency may not be developing the appropriate
certification and accreditation documentation for listed systems.

RECOMMENDATION

      The Office of the Inspector General recommends that the Executive Director for Operations:

      10. Develop and implement a methodology for identifying which listed systems reside on the
          NRC network and which do not.

3.5      Evaluation of Agency POA&M Process

                             OMB Requirement                                     OIG Response
 4.a. The POA&M is an agency-wide process, incorporating all known Almost Always (96-
 IT security weaknesses associated with information systems used or 100% of the time)
 operated by the agency or by a contractor of the agency or other
 organization on behalf of the agency.
 4.b. When an IT security weakness is identified, program officials         Almost Always (96-
 (including CIOs, if they own or operate a system) develop, implement,      100% of the time)
 and manage POA&Ms for their system(s).
 4.c. Program officials and contractors report their progress on            Almost Always (96-
 security weakness remediation to the CIO on a regular basis (at least      100% of the time)
 quarterly).
 4.d. Agency CIO centrally tracks, maintains, and reviews POA&M             Almost Always (96-
 activities on at least a quarterly basis.                                  100% of the time)
 4.e. IG findings are incorporated into the POA&M process.                  Almost Always (96-
                                                                            100% of the time)




                                                23
                                                                             Independent Evaluation of
                                                              NRC’s Implementation of FISMA for FY 2007


                           OMB Requirement                                      OIG Response
 4.f. POA&M process prioritizes IT security weaknesses to help ensure Almost Always (96-
 significant IT security weaknesses are addressed in a timely manner  100% of the time)
 and receive appropriate resources.

NRC has two primary tools for tracking IT security weaknesses associated with information
systems used or operated by the agency or by a contractor of the agency or other organization on
behalf of the agency. At a high level, NRC uses the POA&Ms required by OMB to track (1)
corrective actions from the OIG annual independent evaluation, (2) corrective actions from the
agency’s annual review, and (3) recurring FISMA and IT security action items such as annual
self-assessments and annual contingency plan testing. The POA&Ms may also include
corrective actions resulting from other security studies conducted by or on behalf of NRC.

The more specific corrective actions associated with the certification and accreditation process
(e.g., corrective actions resulting from risk assessments and security test and evaluation) are
tracked in Rational® ClearQuest® as change requests using the project management methodology
process for change management. All certification and accreditation corrective actions arising
from the security test and evaluation process and from vulnerability scans are imported into
Rational ClearQuest. A corrective action plan is generated directly from Rational ClearQuest.
System owners are responsible for remediation of each corrective action within the timeframes
specified in the corrective action plan using the project management methodology process for
change requests.

Procedures for tracking and updating POA&Ms are provided to system owners with the biannual
data call and when the agency requests updates to POA&Ms on alternate quarters between the
biannual data calls. The project management methodology Web site provides detailed
instructions on completing the corrective action plan.

The agency has made minimal progress in correcting weaknesses reported on its POA&Ms. The
agency has corrected 35 percent of its program level weaknesses and 23.7 percent of its system
level weaknesses. This is only a slight improvement over FY 2006. The majority of delays have
been caused by delays in completing certifications and accreditations, as described later in this
report, in Section 3.7. Refer to Appendix C of this report for a detailed analysis of the POA&Ms
submitted for the first three quarters of FY 2007.

FINDING K – The Quality of the Agency’s POA&Ms Needs Improvement (New Finding)

In assessing the agency’s POA&M process, Carson Associates found that (1) the metrics
submitted to OMB often deviated from the actual POA&Ms, and (2) the agency is not always
following OMB and internal NRC POA&M guidance.

Metrics Submitted to OMB Deviate From the Actual POA&Ms

As in FY 2005 and FY 2006, Carson Associates found discrepancies between the metrics
submitted to OMB and the actual POA&Ms. In previous FISMA evaluations, the discrepancies
in the metrics were not considered significant enough to report as a weakness. However, we


                                               24
                                                                                          Independent Evaluation of
                                                                           NRC’s Implementation of FISMA for FY 2007


continue to find these discrepancies, and as a result, the agency may not be conveying an
accurate picture of the agency’s POA&M process and progress to OMB. The most common
errors resulting in the discrepancies are:

       •   Counting weaknesses as closed in more than one quarter.
       •   Counting weaknesses as closed when they have not been closed by the OIG.
           - On the 2nd Quarter FY 2007 POA&M, the agency reported 11 weaknesses from OIG
               reports as completed when the OIG still considered the weaknesses as resolved13 but
               not yet closed.
           - On the 3rd Quarter FY 2007 POA&M, the agency reported two weaknesses from OIG
               reports as completed when the OIG still considered the weaknesses as resolved but
               not yet closed.
       •   Not counting weaknesses as closed when they have been closed by the OIG prior to the
           cutoff date for POA&M reporting.
       •   Reporting weaknesses as on track when they are actually delayed.
       •   Reporting weaknesses as delayed when they are still on track.

The Agency Is Not Always Following OMB and NRC Internal POA&M Guidance

As in previous FISMA evaluations, Carson Associates also found that the agency is not always
following OMB’s POA&M guidance. The agency is also not following NRC internal POA&M
guidance. The following are some examples of deviations from OMB and NRC internal
POA&M guidance found on the FY 2007 POA&Ms.

       •   Weaknesses with completion dates over a year old are not always removed from the
           POA&Ms.
       •   Weakness with changes made to Schedule Completion Dates.
       •   Weaknesses with changes to Changes to Milestones (previously reported milestone
           changes were removed).

RECOMMENDATION

       The Office of the Inspector General recommends that the Executive Director for Operations:

       11. Develop and implement quality assurance procedures for POA&Ms.




13
      The OIG uses the term “resolved” to refer to a recommendation when it concurs with the agency’s proposed
     actions to address to the recommendation, but the agency has not completed those actions to close the
     recommendation.


                                                          25
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2007


3.6    IG Assessment of the Certification and Accreditation Process

                            OMB Requirement                                      OIG Response
 5.a. The IG rates the overall quality of the Agency’s certification and    Failing
 accreditation process as:
 5.b. The IG’s quality rating included or considered the following
 aspects of the C&A process:
                                                           Security plan X
                                                     System impact level X
                                              System test and evaluation X
                                                 Security control testing X
                                                                            No (evaluated at the
                                                       Incident handling
                                                                            agency level)
                                                                            No (evaluated at the
                                            Security awareness training
                                                                            agency level)
                                                Configurations/patching X
                                                                   Other Risk assessment           X

This section reports on Carson Associate’s assessment of the agency’s certification and
accreditation process in detail. Section 3.2.1 of this report discusses the actual number of agency
and contractor systems with a current certification and accreditation. In order to evaluate the
agency’s certification and accreditation process, Carson Associates evaluated the certification
and accreditation documents for one of the two systems with a current certification and
accreditation. We also reviewed the new certification and accreditation process and procedures
located on the agency’s project management methodology Web site, and reviewed accreditation
decision memoranda issued by the agency’s authorizing official. We rated the overall quality of
the agency’s certification and accreditation process as failing because the agency has completed
the certification and accreditation of only two agency systems and one contractor system for
which the agency has direct oversight in the past 2 years. The failing rating does not necessarily
reflect the actual quality of the process itself. Carson Associates could not perform a complete
evaluation of the agency’s new certification and accreditation process, as only two systems had
completed certification and accreditation under the new process at the time of our evaluation.
Based on the certification and accreditation documents we did review, we found that the
agency’s certification and accreditation process is inconsistent with NIST guidance.

Certification and Accreditation – Background

The security certification and accreditation of information systems is integral to an agency’s
information security program and is an important activity that supports the risk management
process required by FISMA. Information systems under development must be certified and
accredited prior to becoming operational. Operational information systems must be re-certified




                                                26
                                                                                             Independent Evaluation of
                                                                              NRC’s Implementation of FISMA for FY 2007


and re-accredited every 3 years in accordance with Federal policy,14 and whenever there is a
significant change15 to the information system or its operational environment.

The following diagram16 illustrates the key activities, including certification and accreditation, in
managing enterprise-level risk, i.e., risk resulting from the operation of an information system.
As illustrated in the diagram, NIST has developed several standards and guidelines to support the
management of enterprise risk. NIST SP 800-37, Guide for the Security Certification and
Accreditation of Federal Information Systems, provides guidelines for certification and
accreditation.




Security certification is a comprehensive assessment of the management, operational, and
technical security controls that are planned or in place in an information system to determine the
extent to which the controls are (1) implemented correctly, (2) operating as intended, and (3)
producing the desired outcome with respect to meeting the security requirements for the
information system. The results of a security certification are used to reassess the risks and

14
    OMB Circular A-130, Appendix III.
15
    Examples of significant changes to an information system that should be reviewed for possible re-accreditation
   include (1) installation of a new or upgraded operating system, middleware component, or application; (2)
   modifications to system ports, protocols, or services; (3) installation of a new or upgraded hardware platform or
   firmware component; and (4) modifications to cryptographic modules or services. Changes in laws, directives,
   policies, or regulations, while not always directly related to the information system, can also potentially affect the
   system security and trigger a re-accreditation action.
16
    The diagram was adapted from a diagram found in the NIST presentation “Building More Secure Information
   Systems: A Strategy for Effectively Applying the Provisions of FISMA,” dated July 29, 2005
   (http://csrc.nist.gov/sec-cert/PPT/fisma-overview-July29-2005.ppt).


                                                            27
                                                                                          Independent Evaluation of
                                                                           NRC’s Implementation of FISMA for FY 2007


update the system security plan, thus providing the factual basis for an authorizing official17 to
render a security accreditation decision. Security certification can include a variety of
assessment methods (e.g., interviewing, inspecting, studying, testing, demonstrating, and
analyzing) and associated assessment procedures depending on the depth and breadth of
assessment required by the agency.

Security accreditation is the official management decision given by a senior agency official to
(1) authorize operation of an information system and (2) explicitly accept the risk to agency
operations, agency assets, or individuals based on the implementation of an agreed-upon set of
security controls. By accrediting an information system, an agency official accepts responsibility
for the information system’s security.

There are three types of accreditation decisions that can be rendered by authorizing officials: (1)
ATO, (2) interim authorization to operate (IATO), and (3) denial of authorization to operate.

       •   Authorization to Operate – issued if, after assessing the results of the security
           certification, the authorizing official deems that the risk to agency operations, agency
           assets, or individuals is acceptable.
       •   Interim Authorization to Operate – issued if, after assessing the results of the security
           certification, the authorizing official deems that the risk to agency operations, agency
           assets, or individuals is unacceptable, but there is an overarching mission necessity to
           place the information system into operation or continue its operation. An IATO is
           rendered when the security vulnerabilities identified in the information system (resulting
           from deficiencies in the planned or implemented security controls) are significant but can
           be addressed in a timely manner. An IATO provides a limited authorization to operate
           the information system under specific terms and conditions and acknowledges greater
           risk to the agency for a specified period of time. In accordance with OMB policy, an
           information system is not accredited during the period of limited authorization to operate.
           The duration established for an IATO should be commensurate with the risk to agency
           operations, agency assets, or individuals associated with the operation of the information
           system. When the security-related deficiencies have been adequately addressed, the
           IATO should be lifted and the information system authorized to operate.
       •   Denial of Authorization to Operate – issued if, after assessing the results of the security
           certification, the authorizing official deems that the risk to agency operations, agency
           assets, or individuals is unacceptable. The information system is not accredited and
           should not be placed into operation. If the information system is currently operational, all
           activity should be halted.

The FY 2005 FISMA independent evaluation found that the majority of NRC information
systems (19 of 27) were not certified and accredited because (1) the certification and
accreditation had lapsed or was never completed and (2) NRC information systems were being
re-certified and re-accredited using new NIST requirements.18 As a result, potential risks to

17
     The agency refers to the authorizing official as the designated approving authority.
18
     NRC information systems are being re-certified and re-accredited in accordance with the minimum security
     controls for information systems defined in NIST SP 800-53.


                                                          28
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2007


agency information systems were unknown. Subsequent to the FY 2005 FISMA independent
evaluation, the former Chairman directed the agency to submit a plan (1) to refocus the agency’s
FISMA program for FY 2006 and (2) for an independent review of NRC’s FISMA program.

NRC Refocused Information System Security Program

Under the refocused program, the agency proposed performing certification and accreditation of
systems that are a high priority from a mission perspective and others that potentially pose a
higher security risk (e.g., agency systems that communicate with systems outside the NRC
network). These high priority systems included legacy financial systems, two new systems, and
infrastructure components supporting these high priority systems. In a February 2006
memorandum to office directors and regional administrators, the agency stated it planned to
complete the certification and accreditation for the high priority systems by the first quarter of
FY 2007.

The first phase of the refocused program also included the development of a new certification
and accreditation process, which has been finalized. The agency has finalized the templates for
all certification and accreditation documents as well as instructions for completing the templates.
The updated certification and accreditation process was also integrated into the agency’s new
project management methodology. One of the agency’s operational major applications was
chosen to “pilot” the new process and documentation standards, in part, to ensure the new
process is repeatable.

In response to the two significant deficiencies identified by the FY 2006 FISMA independent
evaluation, the agency developed a plan to achieve full accreditation for 15 major
applications/general support systems by August 30, 2007, and full accreditation of the remaining
15 major applications/general support systems by August 30, 2008. The agency’s goal was to
have six systems accredited by January 31, 2007. The agency did not meet this goal, and has
changed the priorities of and schedule for the certification and accreditation efforts multiple
times since the first schedule under the refocused program was issued in February 2006. As of
the completion of fieldwork, the agency has completed the certification and accreditation of only
two agency major applications/general support systems. The certification and accreditation for
the system originally chosen to “pilot” the new process and documentation standards still has not
been completed.

Even with the new certification and accreditation process, the refocused information system
security program, and the award of a multi-year, multi-million dollar contract to provide the
agency with consolidated information system security services, the agency has completed
certification and accreditation of only two agency systems and one contractor system for which
the agency has direct oversight in the past 2 years. In the meantime, the certifications and
accreditations for all of the agency’s remaining 28 operational systems have expired.

The FY 2005 FISMA independent evaluation made two recommendations to address the lack of
certified and accredited systems: (1) develop and implement procedures for monitoring timely
initiation of certification and accreditation efforts, and (2) develop and implement a mechanism
for holding responsible managers and their staff accountable for completing certification and
accreditation efforts in a timely manner. However, the agency is still in the process of


                                                29
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2007


implementing the first recommendation. According to the agency, the target date for developing
and implementing procedures for monitoring timely initiation of certification and accreditation
efforts was July 30, 2007. This target date was not met.

As stated previously, it constitutes a significant deficiency that only 2 of the 30 operational NRC
information systems have a current certification and accreditation and only 5 of the 11 systems
used or operated by a contractor or other organization on behalf of the agency have a current
certification and accreditation.

Independent Review of NRC’s Information System Security Program

At the request of the former Chairman, the agency engaged outside expertise to perform an
independent review of the adequacy of the agency’s internal processes used to provide security
to its information systems. NRC selected the Carnegie Mellon University’s Software
Engineering Institute to perform the independent review. Their approach to determining the
adequacy of the agency’s processes used to protect and secure its IT systems included the
following tasks:

   •   Assist the NRC to understand the capability of its information system security program as
       compared to other similar-sized Government agencies, and assist the agency to improve
       its information system security program.
   •   Review the NRC certification and accreditation process to determine its consistency with
       NIST policies and guidance.
   •   Provide NRC leadership with guidance for certification and accreditation efforts,
       including benchmarks for cost, duration, resource commitment, and compliance
       reporting.

The final report was issued on November 13, 2006, and included 23 recommendations and 5
additional recommendations to consider. The agency submitted the report to the Commission on
November 30, 2006, along with plans for addressing the recommendations made in the report.
The agency stated that several recommendations address issues that span the agency’s entire
information security program, including functions residing in other offices. The agency also
stated that the staff would provide an analysis of these issues along with options regarding the
associated recommendations for Commission consideration in a separate Commission paper.
The agency is currently working on developing a new security organization and reporting
framework to address the implementation of these recommendations, but has not issued any
further communication to the Commission on its progress.

FINDING L – The Agency’s Certification and Accreditation Process Is Inconsistent With
NIST Guidance (New Finding)

Carson Associates assessment of the agency’s certification and accreditation process found that it
is inconsistent with NIST guidance. Specifically we found that (1) the issuance of IATOs is still
inconsistent with NIST guidance, and (2) certification and accreditation documents completed
using the new procedures are inconsistent with NIST guidance.



                                                30
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2007


Issuance of Interim Approvals To Operate Is Still Inconsistent With NIST Guidance

As stated previously, there are three types of accreditation decisions that can be rendered by
authorizing officials: (1) an ATO, (2) an IATO, and (3) denial of authorization to operate. A full
and complete certification and accreditation package is necessary for an authorizing official to
render an accreditation decision. A complete certification and accreditation includes a security
plan (which includes or references a risk assessment), a security assessment report, and a
POA&M.

In prior years, the agency allowed current (legacy) systems to operate under an IATO prior to the
completion of certification and accreditation, while concurrently pursuing authority to operate
for new systems. However, OMB has clarified that allowing systems to operate under an IATO
would not be an acceptable approach for the certification and accreditation of systems. NRC
now bases the decision to issue an IATO on the submission of the following documents:

   •   NRC Form 616 – Notification of Electronic Information System Design or Modification
   •   NRC Form 637 – NRC Electronic Information System Records Scheduling Survey
   •   Privacy Impact Assessment
   •   Security Categorization (which includes an e-Authentication risk assessment)

Issuance of an IATO based on the submission of these documents is inconsistent with NIST
guidance. None of these documents describe the actual risks that exist in the systems or identify
threats and vulnerabilities that could expose the agency’s information and information systems to
an unacceptable level of risk. Such information is necessary for the authorizing official to
determine whether the risk to agency operations, agency assets, or individuals, based on the
implementation of an agreed-upon set of security controls for these systems, is acceptable.

The following is a summary of some of the agency’s systems that are currently operating under
an IATO.

   •   Three systems’ last certification and accreditation expired more than 1 year ago.
   •   Two systems’ last certification and accreditation expired more than 2 years ago.
   •   Two general support systems were identified when the LAN/WAN was divided into
       several general support systems. There is insufficient documentation to determine
       whether these systems are fully covered by the previous LAN/WAN certification and
       accreditation.
   •   One agency system has never had a complete certification and accreditation and does not
       even have a security plan or risk assessment.

The agency may have some understanding of the threats, vulnerabilities, and risks associated
with the systems operating under an IATO that have (1) an expired certification and
accreditation, (2) a risk assessment, or (3) a security plan. However, these documents are now
outdated. As noted above, there are several systems operating under an IATO that have never
had a risk assessment and do not have a security plan. For these systems, the authorizing official



                                                31
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2007


cannot make an informed decision regarding whether the risk to agency operations, agency
assets, or individuals is acceptable.

As stated previously, the Software Engineering Institute evaluated the agency’s certification and
accreditation process. One of its recommendations was to make accreditation decisions based on
a set of documents that provide an accurate identification and mitigation of risk, regardless of
whether the authorizing official ultimately decides to grant an ATO, an IATO, or deny operation.
The report also recommended that in addition to the security categorization, the agency should
also require a system security plan prior to issuing an IATO. The agency stated in its response to
the report that staff will ensure that the documentation upon which the accreditation is based
contains an accurate identification of risk as well as any risk mitigation plans, and agreed that
security plans should also be required.

However, the agency continues to issue IATOs without documentation that includes accurate
identifications of risks, risk mitigation plans, or security plans.

RECOMMENDATION

   The Office of the Inspector General recommends that the Executive Director for Operations:

   12. Follow NIST guidance and only issue IATOs with documentation that includes accurate
       identification of risks, risk mitigation plans, and security plans.

Certification and Accreditation Documents Completed Using New Procedures Are Inconsistent
With NIST Guidance

Carson Associates reviewed the certification and accreditation documents for one agency system
that was completed using the new certification and accreditation process and templates. Our
review found that several documents are inconsistent with NIST guidance.

Security Test and Evaluation

As stated earlier, NIST SP 800-37 provides guidance on the certification and accreditation
process. In the security categorization phase, task 4, subtask 4.3 (security control assessment,
security assessment) includes determining the extent to which the security controls are
implemented correctly, operating as intended, and producing the desired outcome with respect to
meeting the security requirements for the system. At the completion of task 4, the certification
agent will be able to determine the extent to which the security controls in the information
system are implemented correctly, operating as intended, and producing the desired outcome
with respect to meeting the security requirements for the information system. The third phase of
the certification and accreditation process is the security accreditation phase. The objective of
task 6 of this phase (security accreditation decision) is to determine (1) the risk to agency
operations, agency assets, or individuals and (2) if the agency-level risk is acceptable.

The system’s security test and evaluation execution report stated that testing was limited to the
40 percent of the assurance controls selected by the NRC Senior Agency Information Security
Officer for pre-approval to operate testing, and all of the functional security controls for the


                                                32
                                                                                            Independent Evaluation of
                                                                             NRC’s Implementation of FISMA for FY 2007


system. A total of 54 controls and 12 control enhancements stated as in-place in either the risk
assessment or security plan were tested. However, 36 controls and 27 control enhancements
stated as in-place were not tested. Some were hybrid controls, which are controls implemented
by the system as well as by other systems, typically general support systems, which also provide
that control. However, some were controls specific to the system being tested.

This is the first certification and accreditation for this system, so none of its security controls had
been tested prior to the security test and evaluation conducted as part of the certification and
accreditation. NIST SP 800-37 specifically states that the organization must assess all security
controls in an information system during the initial security accreditation. If all of the security
controls have not been tested, the certification agent cannot determine the extent to which the
security controls in the information system are implemented correctly, operating as intended, and
producing the desired outcome with respect to meeting the security requirements for the
information system. The authorizing official stated the following in the approval to operate
memorandum for this system: “This security accreditation is my formal declaration that adequate
security controls have been implemented in the information system and that a satisfactory level
of security is present in the system.” It is not possible to determine whether adequate security
controls have been implemented if not all of the security controls have been tested.

Risk Assessment

In the security categorization phase, task 5, subtask 5.2 (security certification documentation,
system security plan update) includes updating the system security plan (and risk assessment)
based on the results of the security test and evaluation and any modifications to the security
controls in the information system. At the completion of the security certification phase, the
security plan and risk assessment should contain an accurate list and description of the security
controls that are implemented (in place) and a list of identified vulnerabilities (i.e., controls that
are not implemented or planned).

However, the system’s risk assessment was not updated to reflect the results of the security test
and evaluation. There were seven security controls and one enhancement that were determined
to be not in place during the security test and evaluation. The risk assessment should have been
updated to reflect that these controls are not in place, and the risks associated with the lack of
these controls should have been re-evaluated.

Security Plan

NIST SP 800-18, Revision 1, Guide for Developing Security Plans for Federal Information
Systems, provides guidance for the development of security plans. Each control description
should contain: (1) the security control title, (2) how the security control is being implemented or
planned to be implemented, (3) any scoping guidance that has been applied and what type of
consideration, and (4) indication of whether the security control is a common control and who is
responsible for its implementation. The use of compensating controls should also be
documented in the system security plan.19

19
      Compensating security controls are the management, operational, or technical controls employed by an agency in
     lieu of prescribed controls in the low, moderate, or high security control baselines, which provide equivalent or


                                                            33
                                                                                           Independent Evaluation of
                                                                            NRC’s Implementation of FISMA for FY 2007




The system’s security plan makes no reference to scoping guidance that has been applied, and
makes no specific mention of compensating controls. There are several controls that have had
scoping guidance applied. For example, the access control AC-18 (wireless access restrictions)
is noted as being not applicable. In this case, scoping guidance has been applied to remove this
control from the moderate-impact baseline applied to the system. The security plan should have
noted the type of scoping guidance – in this case, technology-related – that was applied to the
control. There are also several controls that require compensating controls. There are eight
controls and one control enhancement that are noted as “not planned” in the security plan. If
these controls are not in place, and not planned, then there must be compensating controls in
place to provide equivalent or comparable protection for the controls not in place.

RECOMMENDATION

      The Office of the Inspector General recommends that the Executive Director for Operations:

      13. Develop and implement quality assurance procedures to ensure certification and
          accreditation documentation is consistent with NIST guidance.

3.7      IG Assessment of Agency Privacy Program and Privacy Impact
         Assessment Process

3.7.1 Privacy Impact Assessment Process

                                 OMB Requirement                                               OIG Response
 6.a. Provide a qualitative assessment of the agency’s Privacy Impact                     Excellent
 Assessment (PIA) process, including adherence to existing policy,
 guidance, and standards.

Carson Associates evaluated the agency’s PIA process against the questions from the PIA and
Web Privacy Policies and Processes section of the OMB Reporting Template for Senior Agency
Officials for Privacy.

6.a.1. Does the agency have a written policy or process for determining whether a PIA is
       needed?

MD and Handbook 3.2, Privacy Act, requires office directors and regional administrators to
ensure that PIAs are prepared and submitted to OIS before developing or procuring IT that
collects, maintains, or disseminates personal information about individuals or when initiating a
new electronic collection of personal information in identifiable form20 from 10 or more persons.
In accordance with the agency’s project management methodology, a PIA is required for all
investments at the inception phase of the development lifecycle. PIAs are also part of the

   comparable protection for an information system. The use of compensating security controls must be reviewed,
   documented in the system security plan, and approved by the authorizing official for the information system.
20
   Information in identifiable form is information that permits the identity of the individual to whom the information
   applies to be reasonably inferred directly or indirectly.


                                                          34
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2007


agency’s certification and accreditation process. ISS-01-001, Revision 0, PIA Procedures, dated
August 30, 2006, requires a PIA (or update of an existing PIA) for each legacy system requiring
re-certification and re-accreditation.

6.a.2. Does the agency have a written policy or process for conducting a PIA?

The agency has developed procedures (ISS-01-001) and a template for conducting PIAs. The
procedures provide a detailed discussion of how to complete PIA and include guidance on how
to complete certain questions on the PIA. MD and Handbook 3.2 require the OIS Business
Process Improvement and Applications Division (BPIAD) Director to ensure that PIAs are
conducted, reviewed, and approved before NRC collects information in an identifiable form or
before developing or procuring IT that collects, maintains, or disseminates such information.
The OIS Information and Records Services Division (IRSD) Director is required to ensure that
PIAs are reviewed to address the applicability of the Privacy Act, the Paperwork Reduction Act
information collections requirements, and records management requirements. Once IRSD has
completed its review and approved a PIA, IRSD is responsible for declaring the PIA as an
official agency record in agency’s records management system.

6.a.3. Does the agency have a written policy or process for evaluating changes in business
       process or technology that the PIA indicates may be required?

PIAs are part of the agency’s project management methodology and certification and
accreditation process. Any changes in business process or technology indicated by a PIA would
be handled in accordance with these processes.

6.a.4. Does the agency have a written policy or process for ensuring that system owners and
       privacy and IT experts participate in conducting the PIA?

Offices/system owners are responsible for preparing a PIA for each IT project/system they
sponsor and submitting it to OIS for review and approval. The PIA undergoes review several
times during development by privacy and IT experts, including the agency Privacy Program
Officer, IRSD privacy and records staff, the computer security team, and the agency’s Senior
Agency Information Security Officer.

6.a.5. Does the agency have a written policy or process for making PIAs available to the public
       in the required circumstances?
6.a.6. Does the agency have a written policy or process for making PIAs available in other than
       required circumstances?

PIAs for systems that collect information from or about members of the public are made publicly
available and posted on the NRC external Web, unless making the PIA public would raise
security concerns, reveal classified (i.e., national security) information or sensitive information
(e.g., potentially damaging to a national interest, law enforcement effort or competitive business
interest) contained in the assessment. The sponsoring office is responsible for performing the
review that determines if the PIA can be made public or not. Should an office wish to post a PIA
on the external Web that does not collect information from or about members of the public, the


                                                35
                                                                                             Independent Evaluation of
                                                                              NRC’s Implementation of FISMA for FY 2007


office must inform the Privacy Program Officer that it has completed a review and that there is
nothing in the PIA that would preclude it from being made public. The Privacy Program Officer
changes the availability of the document in the agency’s records management system and has it
posted on the agency’s external Web site.

6.a.5. Does the agency have a written policy or process for determining continued compliance
       with stated Web policies?

MD and Handbook 3.14, U.S. Nuclear Regulatory Commission External Web Site, include
policies and procedures to ensure that (1) operation of the site complies with applicable laws and
regulations, (2) all content on the external Web site contributes to increasing public confidence
in the NRC and to making conducting business with the NRC more efficient and effective, and
(3) the content (i) reflects agency policy; (ii) is accurate, current, and easy to find; (iii) is
accessible by all site users, including those with disabilities; (iv) adheres to best practices for
Web usability; (v) does not unfairly promote one organization or commercial entity over others;
and (vi) is published only once and is referenced by links when the same content is related to
more than one topic.

The MD and Handbook are augmented by additional guidance on the agency’s internal Web site.
The additional guidance includes interface requirements for Web-based software applications,
requirements and best practices for Government Web managers, and information on who
participates in Web publishing. The agency’s process for publishing content to the agency’s
external Web site includes five basis steps: (1) initial authorization of content, (2) screening
content, (3) preparing content, (4) formatting content, and (5) publishing content. During the
screening step, the content is checked for Web suitability, and includes checks for copyright,
OMB information collection requirements, persistent cookies, privacy, and sensitivity. The Web
site includes numerous instructions and checklists for each step of the publishing process.

6.a.6. Does the agency have a written policy or process for requiring machine-readability of
       public-facing agency Web sites (i.e., use of P3P21)?

As MD and Handbook MD 3.14 were last issued prior to the OMB memorandum requiring that
privacy policies be translated into a standardized machine-readable format, the agency has
posted this requirement on its internal Web site.




21
     The Platform for Privacy Preferences Project (P3P) enables Web sites to express their privacy practices in a
     standard format that can be retrieved automatically and interpreted easily by user agents.


                                                            36
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2007


3.7.2 Progress in Implementing OMB M-06-15

                           OMB Requirement                                       OIG Response
 6.b. Provide a qualitative assessment of the agency’s progress to date     Excellent
 in implementing the provisions of M-06-15, “Safeguarding Personally
 Identifiable Information,” since the most recent self-review, including
 the agency’s policies and processes, and the administrative, technical,
 and physical means used to control and protect personally identifiable
 information (PII).

In its FY 2006 FISMA submission to OMB, the agency reported that in response to OMB M-06-
15, it conducted a review of physical and personnel security, and administrative and technical
policies and processes related to the prevention of the intentional or negligent misuse of, or
unauthorized access to PII. Subsequent to that review, the agency has made significant progress
in implementing the provisions of M-06-15 as well as subsequent memoranda issued by OMB
regarding privacy and PII.

To ensure that all agency personnel are familiar with the requirements of the Privacy Act, the
agency’s implementing regulation, and any other special requirements (i.e., handling PII), NRC
issues regular announcements to all employees. These announcements provide general guidance
or address specific issues. Each notice directs agency personnel to an internal Privacy Act Web
page which provides staff access to guidance, regulations, procedures, and training in the area of
the Privacy Act. The agency has issued the following announcements regarding the Privacy Act
and the protection of PII.

   •   NRC Yellow Announcement YA-06-0039, Safeguarding Personal Privacy Information,
       June 22, 2006
   •   NRC Yellow Announcement YA-06-0069, Protection of Personally Identifiable
       Information, September 19, 2006
   •   NRC Yellow Announcement YA-07-0071, Privacy at the NRC, July 18, 2007

The agency created a PII poster that has been displayed in all agency buildings. Smaller copies
of the poster are displayed throughout agency offices. The agency also maintains a PII project
Web page that describes the agency’s activities related to the protection of PII. This Web page
contains information such as (1) frequently asked questions; (2) how to report inadvertent
releases of PII; (3) links to OMB, Office of Personnel Management, and NRC PII policy; (4)
information on the agency’s PII task force (e.g., background and charter, membership, and
meeting minutes); and (5) information on automated tools available to assist in searching for files
that contain PII.

In addition to the activities requested by OMB, NRC conducted a thorough review of documents
in the public library of the agency’s document management system to identify and secure any
documents that contained a Social security number (SSN). The documents containing PII were
removed from the public library immediately. All current and former NRC employees whose
SSNs were available in the public library were notified. NRC is in the process of finalizing


                                                37
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2007


notification letters to the non-NRC entities who submitted the documents with SSNs to the
public library. NRC is also working on identifying and notifying the non-NRC staff whose SSNs
were made available in NRC correspondence. NRC also notified OMB and the Department of
Homeland Security about the PII contained in documents placed in the public library of the
agency’s documents management system.

In response to OMB-06-16, Protection of Sensitive Agency Information, dated June 23, 2006, the
agency implemented short-term plans to (1) focus on improving staff awareness, (2) review and
update current direction to reflect the new OMB recommendations related to PII, and (3) assist
offices in identifying current data sources with PII information. The agency’s security awareness
training was updated to reflect PII data requirements. The agency also created an interoffice task
force to determine the business processes that include PII, including data collection resulting
from NRC information collections and NRC forms, and to revise agency direction, as
appropriate, on the use of PII. Other short-term plans include: (1) developing a detailed plan and
schedule to complete a comprehensive review of the main and public libraries of the agency’s
documents management system to identify and secure documents containing PII other than
SSNs; and (2) asking contract project managers to have current contractors inventory PII in their
possession, and then determine the contractor’s need to possess the PII.

Mid-term activities focus on implementing mitigation strategies to protect PII from unauthorized
use. The agency is evaluating major systems that use PII, and is consolidating its automated
inventory system in order to further ensure all systems that utilize PII have been identified and
are appropriately managed. The agency is also developing mitigation techniques to eliminate PII
where possible on agency systems identified or to ensure that PII is managed in a safe and secure
manner.

Long-term goals include (1) updating MD and Handbook 12.5 to reflect to reflect PII direction;
(2) identifying, protecting, and monitoring access to PII through completion of certification and
accreditation of NRC’s major systems; and (3) designing, developing, and implementing a
uniform enterprise security architecture based upon Federal and commercial “best practices.”

The agency has issued guidance on (1) the use of mobile computers and devices (NRC-owned
and personally owned) to store PII, (2) the removal of paper documents that contain PII from
NRC-controlled space, (3) the use of NRC remote access services to access systems containing
PII, and (4) password-protection of mobile devices. The agency’s remote access system invokes
a forced logout after 30 minutes of user inactivity, and BlackBerry devices have a system-
enforced logout after 15 minutes of inactivity.

As a result of a report issued by the OIG in FY 2006, the CIO directed offices to conduct an
immediate review of all network drives for the presence of personal privacy information and
remove any information that should not be posted on a network drive unless access to that
information is appropriately restricted to users with a “need to know.” OIS provided the offices
with guidance, support, and an automated tool to assist the staff in searching and identifying
documents with personal privacy information. This initial effort was completed in April 2007.
The agency is still developing policies and procedures for performing periodic reviews of
network drives for the presence of personal privacy information.



                                                38
                                                                                           Independent Evaluation of
                                                                            NRC’s Implementation of FISMA for FY 2007




3.8        Configuration Management

                                   OMB Requirement                                              OIG Response
 7.a. Is there an agency-wide security configuration policy?                              Yes
 7.b. Approximate the extent to which applicable information systems                      Rarely (0-50% of the
 apply common security configurations established by NIST.                                time)

The agency has implemented several policies that address security configurations and their
implementation. System security screening guidelines were developed to prepare new systems
for implementation into the NRC production operating environment. The security screening
ensures that system configurations meet NRC network security requirements. The guidelines
outline the steps necessary to request and perform the security screening process, provide
guidance on managing and developing a secure system, and list industry best practices and
additional resources.

The agency has also posted guidance on the NRC internal Web site requiring the use of
hardening specifications for the different operating systems and software in use at the agency.
Hardening specifications in use at the agency include benchmarks developed by the Center for
Internet Security, the Defense Information Systems Agency (DISA) Gold Disk,22 National
Security Agency security configuration guides, and custom hardening specifications developed
by the agency. The agency requires the use of the most recent version of the specified hardening
specifications.

NRC uses PatchLink to keep desktop configurations consistent across NRC. Network Bulletins
are used to announce agency workstation updates. The announcements describe the nature of the
upgrade and whether or not a workstation restart is required after the patches are installed.

NRC also requires all new acquisitions to include language to ensure that information technology
providers certify their products operate effectively using the common security configurations
required by OMB memorandum M-07-18, Ensuring New Acquisitions Include Common Security
Configurations.

Carson Associates could not fully determine the extent to which applicable information systems
apply common security configurations established by NIST. The agency did not provide the list
of NIST or NIST-approved configurations in use at the agency until the last day of fieldwork.
There was insufficient time to select a representative set of information systems to compare
against the stated security configurations for the various operating systems and software in use at
the agency.

Carson Associates did review the security test and evaluation results for the agency system
selected for evaluation in FY 2007. DISA Gold Disk scans of the servers that support this

22
      The DISA Gold Disk is a tool that allows a system administrator to scan a system for vulnerabilities, make
     appropriate security configuration changes, and apply security patches. The Gold Disk uses an automated process
     that configures a system in accordance with DISA Security Technical Implementation Guidelines.


                                                           39
                                                                                           Independent Evaluation of
                                                                            NRC’s Implementation of FISMA for FY 2007


system found that none of the servers were in compliance with the NRC-specified hardening
specifications for those operating systems.

3.9        Incident Reporting

                                   OMB Requirement                                             OIG Response
 8.a. The agency follows documented policies and procedures for                          Yes
 identifying and reporting incidents internally.
 8.b. The agency follows documented policies and procedures for                          Yes
 reporting to US-CERT.
 8.c. The agency follows documented policies and procedures for                          Yes
 reporting to law enforcement.

MD and Handbook 12.5, Appendix B, formalizes the agency’s procedures for monitoring,
detecting, reporting, and responding to information systems security incidents. It also provides
the requirements and procedures for reporting incidents internally, for reporting to US-CERT,23
and for reporting to law enforcement. The most current version of the incident response
procedures is maintained on the agency’s internal Web site.

The Management Directive defines the roles and responsibilities for reporting and responding to
information system security incidents. When criminal activity is suspected or confirmed, the
procedures assign the OIG responsibility for contacting and coordinating the response with law
enforcement officials.

Carson Associates reviewed samples of various incident response reports to determine whether
the agency follows documented policies and procedures for identifying and reporting incidents.

3.10       Security Awareness Training

                                   OMB Requirement                                             OIG Response
 9. Has the agency ensured security awareness training of all                            Almost Always (96-
 employees, including contractors and those employees with significant                   100% of employees)
 IT security responsibilities?
 10. Does the agency explain policies regarding peer-to-peer file         Yes
 sharing in IT security awareness training, ethics training, or any other
 agency wide training?

All new NRC employees (including contractors, interns, and summer hires) are required to
attend orientation the first day they report for duty. During the orientation, a member of the
NRC Computer Security Team gives a brief presentation, which includes a discussion on
appropriate use of information technology equipment. In addition, a member of the Office of the


23
      The procedures actually reference reporting to the Federal Computer Incident Response Center, which was
     replaced with the US-CERT when the Department of Homeland Security was established.


                                                          40
                                                                                            Independent Evaluation of
                                                                             NRC’s Implementation of FISMA for FY 2007


General Counsel presents a session on ethics that includes additional discussions on appropriate
use of the Internet.

For FY 2007, all employees, including contractors, were required to attend in-person IT security
training to ensure all employees are aware of their personal IT security responsibilities. Training
sessions took approximately 3 hours and were held between October 2006 and December 2006,
with a few makeup sessions scheduled in early January 2007. Employees hired since these
training sessions were over are required to watch a video of the course (either online or on
DVD). As of April 2007, the agency had achieved 100-percent compliance. The agency used
NIST SP 800-16, Information Technology Security Training Requirements: A Role- and
Performance-Based Model, and NIST SP 800-50, Building an Information Technology Security
Awareness and Training Program, for sources of topics for the training course. The presentation
slides from the course, the participant manual, and the NRC User Responsibilities for IT Security
Golden Book are available online on the NRC internal Web site. The agency has also posted
questions and answers from the various training sessions on the NRC internal Web site.

All Information System Security Officers and IT managers are required to take an additional
online IT security awareness training course in addition to the required security awareness
training described above. This additional IT security awareness training course must be taken
every 3 years. NRC also provides an online IT security awareness course for system
administrators. All system administrators must take this training course before assuming their
duties, and then every 3 years thereafter.

NRC meets the Office of Personnel Management requirement to expose employees to security
awareness materials at least annually by (1) mandating all NRC staff take annual IT security
awareness training and by documenting who takes the annual training; (2) using posters, flyers,
Web pages, NRC Yellow Announcements,24 NRC Announcements, and articles/notices in the
NRC monthly newsletter to keep computer security on everyone’s mind throughout the year; and
(3) by holding an Annual NRC Security Awareness Day event.

The agency is in the process of developing a computer security awareness and training program
plan to fully implement the requirements outlined in OMB Circular A-130, Appendix III;
FISMA; Management Directive and Handbook 12.5; and the Office of Personnel Management’s
final regulations concerning information technology security awareness.

The FY 2007 in-person security awareness training included a discussion of the dangers of peer-
to-peer applications such as instant messaging. The installation of peer-to-peer software on NRC
computers without explicit written approval of the NRC designated approving authority is
prohibited. The agency provides a peer-to-peer frequently asked questions document on its
internal Web site.



24
      NRC Yellow Announcements (formerly Yellow Announcements) establish new policies, practices, or procedures;
     introduce changes in policy, senior staff assignments, or organization; or address major agencywide events. These
     announcements require signature and are retained as permanent records in the agency’s document management
     system.


                                                           41
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2007


FINDING M – Agency Lacks Procedures for Ensuring Employees With Significant IT
Security Responsibilities Receive Security Training (Repeat Finding)

While the agency meets the FISMA requirement to ensure all employees received IT security
awareness training, the agency still has not met the requirement to provide specialized training
for employees with significant security responsibilities as described in NIST SP 800-16.

The FY 2005 FISMA independent evaluation found that the agency had difficulty in gathering
the information needed to report on (1) the total number of employees with significant IT
security responsibilities, (2) the number of those employees who have received specialized
training, and (3) the total cost for providing IT training. At the time of the FY 2005 FISMA
independent evaluation, the agency’s training system did not identify which employees have
significant IT security responsibilities and what courses are considered related to IT security.
The agency’s training system also did not account for any training the employees may have
taken on their own time.

The agency is working with NRC offices to identify employees and contractors with significant
IT security responsibilities. The agency is also developing procedures for ensuring staff with
significant IT security responsibilities are identified and receive security awareness training and
that the individual and associated training are properly documented and readily identifiable.
According to the agency, the current target date for completing the recommendation from the FY
2005 FISMA independent evaluation concerning security training for employees and contractors
with significant IT security responsibilities is August 31, 2008.

RECOMMENDATION

   The Office of the Inspector General recommends that the Executive Director for Operations:

   14. Develop and implement procedures for ensuring employees and contractors with
       significant IT security responsibilities are identified, receive security awareness and
       training, and the individual and associated training are readily identifiable. This
       recommendation replaces recommendation #10 from OIG-05-A-21, Independent
       Evaluation of NRC’s Implementation of FISMA for Fiscal Year 2005.

3.11   E-Authentication Risk Assessments

                            OMB Requirement                                       OIG Response
 11. The agency has completed system e-authentication risk                   No
 assessments.

In December 2003, OMB issued memorandum M-04-04, E-Authentication Guidance for Federal
Agencies. The guidance applies to remote authentication of users of Federal agency information
technology systems for the purposes of conducting Government business electronically (or e-
Government). Remote authentication occurs when users identify and authenticate to information
systems from outside of a specified security perimeter that is considered to offer sufficient
protection. Performing an e-authentication risk assessment can also assist agencies in


                                                42
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2007


determining the appropriate identification and authentication controls for their systems. In
addition, the e-authentication initiative is the first reusable component of the Federal Enterprise
Architecture, the second e-Government cross-cutting initiative. Part of the Federal Enterprise
Architecture plan is that the vast majority of Federal systems incorporating authentication
functions should migrate to support e-authentication over time.

The e-authentication risk assessment is also required to implement Part 2 FIPS 201-1, Personal
Identity Verification of Federal Employees and Contractors, dated March 2006. In accordance
with OMB M-05-24, Implementation of Homeland Security Presidential Directive (HSPD) 12 –
Policy for a Common Identification Standard for Federal Employees and Contractors, dated
August 5, 2005, in order to implement Part 2 of the standard, by October 27, 2006, all
departments and agencies must begin deploying products and operational systems meeting
specific requirements, including the use of digital certificates. According to the OMB
memorandum, agencies must require the use of the identity credential for system access.
Agencies must prioritize this requirement based on risk, using their authentication risk
assessments required by previous OMB guidance and the categorization required by FIPS 199.

While OMB M-04-04 only requires e-authentication risk assessments for e-Government systems,
NRC requires e-authentication risk assessments for all agency systems that require security
categorizations. The e-authentication risk assessment is conducted during the security
categorization of a system.

FINDING N – E-Authentication Risk Assessments Have Not Been Completed (Repeat
Finding)

This is a repeat finding from the FY 2005 and FY 2006 FISMA independent evaluations. The
FY 2005 FISMA independent evaluation also found that the six e-authentication risk assessments
that were completed at the time were incorrect and inconsistent with the systems’ FIPS 199
security categorizations. The agency has completed all e-authentication risk assessments
required under OMB M-04-04; however, the agency (1) has not completed e-authentication risk
assessments for all agency systems in accordance with its own policy, and (2) has not completed
their review and update of the six e-authentication risk assessments originally identified in FY
2005 as having inaccuracies and inconsistencies. Only 15 of the 30 operational NRC
information systems have completed e-authentication risk assessments. Only 5 of the 11
contractor systems have completed e-authentication risk assessments. According to the agency,
the target date for completing all e-authentication risk assessments was July 30, 2007. This
target date was not met.

Not only is the agency failing to meet the requirement to complete e-authentication risk
assessments, the agency also cannot prioritize the HSPD-12 and FIPS 201-1 requirement to use
the identity credential for system access as not all systems have been categorized in accordance
with FIPS 199, and not all systems have completed their authentication risk assessments.




                                                 43
                                                                            Independent Evaluation of
                                                             NRC’s Implementation of FISMA for FY 2007


RECOMMENDATION

  The Office of the Inspector General recommends that the Executive Director for Operations:

  15. Develop and implement a plan for completing the remaining e-authentication risk
      assessments. This plan should include the review and update of the remaining two e-
      authentication risk assessments originally identified in FY 2005 as having inaccuracies
      and inconsistencies. This recommendation replaces recommendations #8 and #9 from
      OIG-05-A-21, Independent Evaluation of NRC’s Implementation of FISMA for Fiscal
      Year 2005.




                                              44
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2007


4      Consolidated List of Recommendations

The Office of the Inspector General recommends that the Executive Director for Operations:

    1. Review and correct as needed all security categorizations so that they consistently reflect
        the information types that reside on the systems.
    2. Categorize all NRC major applications and general support systems in accordance with
        FIPS 199. This recommendation replaces recommendation #1 from OIG-05-A-21,
        Independent Evaluation of NRC’s Implementation of FISMA for Fiscal Year 2005.
    3. Conduct annual self-assessments in accordance with current OMB and NIST guidance.
    4. For self-assessments conducted on systems without an approved security categorization,
        include an explanation as to how the impact levels for confidentiality, integrity, and
        availability were determined. This explanation should also include a discussion of any
        changes to the impact levels (if any) from the previous year’s self-assessment.
    5. Develop and implement quality assurance procedures for self-assessments.
    6. Develop and implement procedures to ensure contingency plans are tested annually,
        regardless of the status of the systems’ certification and accreditation. This
        recommendation replaces recommendation #3 from OIG-05-A-21, Independent
        Evaluation of NRC’s Implementation of FISMA for Fiscal Year 2005.
    7. Maintain documentation that demonstrates systems provided by other Federal agencies
        meet FISMA requirements. This recommendation replaces recommendations #4, #5, and
        #6 from OIG-05-A-21, Independent Evaluation of NRC’s Implementation of FISMA for
        Fiscal Year 2005.
    8. Develop and implement procedures for performing oversight of major applications and
        general support systems operated by a contractor or other organization on behalf of the
        agency. This recommendation replaces recommendation #7 from OIG-05-A-21,
        Independent Evaluation of NRC’s Implementation of FISMA for Fiscal Year 2005.
    9. Complete the updates to the security categorizations of the general support systems into
        which the Network Continuity of Operations system components have been incorporated.
        This recommendation replaces recommendation #2 from OIG-06-A-26, Independent
        Evaluation of NRC’s Implementation of FISMA for Fiscal Year 2006.
    10. Develop and implement a methodology for identifying which listed systems reside on the
        NRC network and which do not.
    11. Develop and implement quality assurance procedures for POA&Ms.
    12. Follow NIST guidance and only issue IATOs with documentation that includes accurate
        identification of risks, risk mitigation plans, and security plans.
    13. Develop and implement quality assurance procedures to ensure certification and
        accreditation documentation is consistent with NIST guidance.
    14. Develop and implement procedures for ensuring employees and contractors with
        significant IT security responsibilities are identified, receive security awareness and
        training, and the individual and associated training are readily identifiable. This
        recommendation replaces recommendation #10 from OIG-05-A-21, Independent
        Evaluation of NRC’s Implementation of FISMA for Fiscal Year 2005.



                                                45
                                                                          Independent Evaluation of
                                                           NRC’s Implementation of FISMA for FY 2007


15. Develop and implement a plan for completing the remaining e-authentication risk
    assessments. This plan should include the review and update of the remaining two e-
    authentication risk assessments originally identified in FY 2005 as having inaccuracies
    and inconsistencies. This recommendation replaces recommendations #8 and #9 from
    OIG-05-A-21, Independent Evaluation of NRC’s Implementation of FISMA for Fiscal
    Year 2005.




                                            46
                                                                           Independent Evaluation of
                                                            NRC’s Implementation of FISMA for FY 2007


5      Agency Comments

At an exit conference with the agency held on September 17, 2007, the agency provided informal
written comments and generally agreed with the report recommendations. The NRC Chief
Information Officer provided a formal response to this report on September 24, 2007. Appendix
E contains the Chief Information Officer’s transmittal letter. The agency’s formal comments
along with OIG’s analysis and response to those comments are included as Appendix F. This
final report incorporates revisions made, where appropriate, in response to the agency’s
comments.




                                              47
                                            Independent Evaluation of
                             NRC’s Implementation of FISMA for FY 2007




[Page intentionally left blank]




              48
                                                                           Independent Evaluation of
                                                            NRC’s Implementation of FISMA for FY 2007


Appendix A.       SCOPE AND METHODOLOGY

Carson Associates performed an independent evaluation of NRC’s Implementation of FISMA
for FY 2007. To conduct the independent evaluation, the team met with agency staff responsible
for implementing the agency’ information system security program, reviewed certification and
documentation for the agency’s operational information systems, and reviewed other
documentation provided by the agency that demonstrated its implementation of FISMA.

All analyses were performed in accordance with guidance from the following:

   •   National Institute of Standards and Technology standards and guidelines
   •   Nuclear Regulatory Commission Management Directive and Handbook 12.5, NRC
       Automated Information Security Program
   •   NRC Office of the Inspector General audit guidance

This work was conducted between April 2007 and August 2007. Any information received from
the agency subsequent to the completion of fieldwork was incorporated when possible. The
work was conducted by Jane M. Laroussi, CISSP, and Kelby M. Funn, CISA, from Richard S.
Carson and Associates, Inc.




                                              49
                                            Independent Evaluation of
                             NRC’s Implementation of FISMA for FY 2007




[Page intentionally left blank]




              50
                                                                            Independent Evaluation of
                                                             NRC’s Implementation of FISMA for FY 2007


Appendix B.       STATUS OF CONTINGENCY PLAN TESTING

The following information on the status of contingency plan testing was obtained from the 3rd
Quarter FY 2007 POA&Ms submitted by the agency to OMB and from working papers from the
FY 2007 FISMA independent evaluation. Systems with contingency plans tested in FY 2007 are
indicated by shading in the “Last CP Test Date” column. Systems with contingency plan testing
scheduled for FY 2007, but which have not yet completed contingency plan testing, are indicated
by shading in the “Scheduled Test Date” column.

                      Table B-1. Status of Contingency Plan Testing
                          Last CP Test     Scheduled Test
        System                                                             Comment
                              Date             Date
 Agency Systems
 3-Tier Web            Never tested       August 2008
 ADAMS                  August 16, 2004   November 25,
                                          2007
 CTF                    June 29, 2004     November 30,        Last test was “inherited” from
                                          2007                LAN/WAN.
 DCS                    April 29, 2004    July 30, 2007
 DDMS                   Between           Not yet
                        6/28/07 and       scheduled
                        7/25/07
 Desktops               June 29, 2004     June 2008           Last test was “inherited” from
                                                              LAN/WAN.
 E-mail                June 29, 2004      Q4 FY 2009          Last test was “inherited” from
                                                              LAN/WAN.
 EHD                    Never tested      June 30, 2007
 EIE                    April 6, 2006     Q1 FY 2009          Agency never approved test
                                                              results from April 2006.
 ERDS                   August 2007       Not yet             August 2007-Headquarters,
                                          scheduled           January 2007-Regions I and III,
                                                              February 2007-Region IV,
                                                              March 2007-Region III.
 Fees System            April 24, 2007    Not yet
                                          scheduled
 GLTS                   May 13, 2004      Mid FY 2009




                                              51
                                                                     Independent Evaluation of
                                                      NRC’s Implementation of FISMA for FY 2007


                   Last CP Test      Scheduled Test
       System                                                       Comment
                       Date              Date
HPCS-CDS/CFD     Never tested       Q1 FY 2009         Transitioning to a listed system,
                                                       so a contingency plan would not
                                                       be required after the transition.
                                                       However, the planned transition
                                                       to listed system has not
                                                       occurred.
HRMS             May 8, 2007        Not yet
                                    scheduled
IDSSD            June 29, 2004      Q2 FY 2008         Last test was “inherited” from
                                                       LAN/WAN.
IPSS             July 25, 2003      December 31,
                                    2007
LAN/WAN          May 10 and         December 2008      Testing was just for switches
                 May 11, 2005                          and routers.
LTS              May 18, 2004       Q1 FY 2009         Was to be retired by September
                                                       30, 2005. As of the completion
                                                       of fieldwork, the system had not
                                                       been retired.
MPKI             June 29, 2004      July 15, 2008      Last test was “inherited” from
                                                       LAN/WAN.
Novell Servers   June 29, 2004      August 30, 2008    Last test was “inherited” from
                                                       LAN/WAN.
NSICD            Never tested       Q2 FY 2008         This system does not have a
                                                       contingency plan.
OCIMS            June 19, 2006      September 30,
                                    2007
RAS              March 27, 2004     August 2008        This is another general support
                                                       system that was broken out
                                                       from the LAN/WAN.
                                                       According to the agency, it was
                                                       included with the continuity of
                                                       operations testing performed in
                                                       March 2004.
RPS              July 9, 2007 and   Not yet
                 July 13, 2007      scheduled
SGI-LAN          Never tested –     Not yet
                 new system in      scheduled
                 FY 2007




                                       52
                                                                           Independent Evaluation of
                                                            NRC’s Implementation of FISMA for FY 2007


                        Last CP Test      Scheduled Test
        System                                                            Comment
                            Date              Date
TAC                   June 24, 2005       Q4 FY 2009         Planned transition to listed
                                                             system (once HPCS moves to
                                                             the production operating
                                                             environment). Transition to
                                                             listed system delayed until
                                                             February 15, 2008.
Telecommunications April 29, 2004         November 2008
Unix Servers          Insufficient      Q4 FY 2009           This is another general support
                      documentation                          system that was broken out
                      to determine                           from the LAN/WAN.
                      whether covered
                      by previous tests
Web Servers           Insufficient        June 1, 2006       This is another general support
                      documentation       (delayed,          system that was broken out
                      to determine        completion date    from the LAN/WAN.
                      whether covered     to be
                      by previous tests   determined)
Windows Servers       June 29, 2004       August 2009        Last test was “inherited” from
                                                             LAN/WAN.
Contractor Systems
CNWRA                 Unknown             Unknown
e-QIP                 Unknown             Unknown
FFS                   March 2007          March 2008
FPDS-NG               Unknown             Unknown
FPPS                  August 2007         August 2008
INL                   Unknown             Unknown
L3-EER                Unknown             Unknown
LMIT                  Unknown             Unknown
LSN                   April 27-28,        September 29,
                      2006                2007
NIH                   Unknown             Unknown
SPS                   Unknown             Unknown

ADAMS                Agencywide Document Access and Management System
CNWRA                Center for Nuclear Waste Regulatory Analyses
CTF                  Consolidated Test Facility
DCS                  Data Center Services
DDMS                 Digital Data Management System


                                             53
                                                                       Independent Evaluation of
                                                        NRC’s Implementation of FISMA for FY 2007


e-QIP          Electronic Questionnaire for Investigations Processing
EHD            Electronic Hearing Docket
EIE            Electronic Information Exchange
ERDS           Emergency Response Data System
Fees System    A group of nine applications that support the collection of license fees
FFS            Federal Financial System
FPDS-NG        Federal Procurement Data Systems-Next Generation
FPPS           Federal Personnel and Payroll System
GLTS           General License Tracking System
HPCS-CDS/CFD   High Performance Computing System – Code Development
               System/Computational Fluid Dynamics System
HRMS           Human Resources Management System
IDSSD          Intrusion Detection System and Security Devices
INL            Idaho National Laboratory
IPSS           Integrated Personnel Security System
L3-EER         L-3 Communications Corporation, Government Services, Inc.
LAN/WAN        Local Area Network/Wide Area Network
LMIT           Lockheed Martin Information Technology
LSN            Licensing Support Network
LTS            License Tracking System
MPKI           Managed Public Key Infrastructure
NIH            National Institutes of Health
NSICD          NRC Systems Inventory and Configuration Database
OCIMS          Operations Center Information Management System
RAS            Remote Access System
RPS            Reactor Program System
SGI-LAN        Safeguards Local Area Network (also referred to as Secure LAN)
SPS            Secure Payment System
TAC            Technology Assessment Center




                                        54
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2007


Appendix C.          DETAILED POA&Ms ANALYSIS

The agency carried over a total of 33 program level and 172 system level weaknesses from FY
2006 into FY 2007. The following tables provide statistics from the FY 2007 POA&Ms the
agency has submitted to OMB for the 1st, 2nd, and 3rd quarters. These statistics reflect our
analysis of the POA&Ms and may differ from the actual metrics submitted to OMB.

                              Table C-1. Program Level POA&M Statistics
                                                                                          # For Start
              # At Start of
    Quarter                       # New    # Completed     # Ongoing      # Delayed         of Next
                Quarter
                                                                                           Quarter
 Q1                33               5           0             16              22               38
 Q2                38               2           9             17              14               31
 Q3               33 *              0           5              6              22               28
*     Eight weaknesses were reported as closed in Q2 in error, but six of them were actually closed
      in Q3, so they should not be counted at the start of the quarter since they were already
      counted as closed in the previous quarter.

                              Table C-2. System Level POA&Ms Statistics
                                                                                          # For Start
               # At Start of
    Quarter                       # New    # Completed     # Ongoing      # Delayed         of Next
                 Quarter
                                                                                           Quarter
 Q1                172              32          4              56             144             200
 Q2                200              10          10             40             160             200
 Q3              201 **             1           37             37             128             165
** Three weaknesses were reported as closed in Q2 in error, but two of them were actually
   closed in Q3, so they should not be counted at the start of the quarter since they were already
   counted as closed in the previous quarter.

Table C-3 summarizes the total number of weaknesses included in the FY 2007 POA&Ms, the
total number of corrective actions actually completed, the total number of corrective actions that
are still ongoing, and the number of corrective actions whose completion has been delayed. The
statistics are based on Tables C-1 and C-2 above.




                                                    55
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2007


            Table C-3. Summary of FY 2007 POA&Ms Through the 3rd Quarter
                       Total #          Total #          Total #          Total #            %
                     Weaknesses        Completed        Ongoing           Delayed         Completed
  Program Level           40               14               6                22              35%
   System Level           215              51              37               128             23.7%

In the agency’s 3rd Quarter FY 2007 FISMA update to OMB, the agency reported that up to 20
percent of the weaknesses for various systems were closed this quarter. This is misleading
because:

   •   One of the three weaknesses reported as closed for a system was reported as closed in a
       previous quarter.
   •   Five of the eight weaknesses reported as closed for a system were related to updates to
       the system’s contingency plan. The five weaknesses were noted on the POA&M as
       duplicates of another weakness and were closed. The updates to the contingency plan
       were eventually completed, but not until after the five weaknesses had been reported as
       closed.
   •   All nine of the weaknesses reported as closed for a legacy system were closed because a
       decision was made at the agency level not to continue with the certification and
       accreditation of the system, which is undergoing modernization. Upon issuing the
       system’s IATO, the DAA decided not to require the system owner to continue
       development of the contingency plan and security plan. The nine weaknesses were
       closed as a result of this decision and not because the corrective actions to address the
       weaknesses had been completed. The contingency plan for this system was eventually
       updated and tested, but not until after the nine weaknesses had been reported as closed.
   •   Four of the five weaknesses reported as closed for a system were reported as closed in
       previous quarters.




                                                56
                                                                          Independent Evaluation of
                                                           NRC’s Implementation of FISMA for FY 2007


Appendix D.      FY 2007 OMB FISMA REPORTING TEMPLATE FOR IGs

This appendix contains the FY 2007 OMB FISMA Reporting Template for IGs (referred to by
OMB as Section C) and the additional narrative that will be included in the agency’s FISMA
submission to OMB.




                                             57
                                                                                                                            Independent Evaluation of
                                                                                                             NRC’s Implementation of FISMA for FY 2007


                                                Section C - Inspector General: Questions 1 and 2
Agency Name:          Nuclear Regulatory Commission                                                          Submission date:                 25-Sep-07
                                                            Question 1: FISMA Systems Inventory

1. As required in FISMA, the IG shall evaluate a representative subset of systems used or operated by an agency or by a contractor of an agency or other
organization on behalf of an agency.

In the table below, identify the number of agency and contractor information systems, and the number reviewed, by component/bureau and FIPS 199
system impact level (high, moderate, low, or not categorized). Extend the worksheet onto subsequent pages if necessary to include all
Component/Bureaus.

Agency systems shall include information systems used or operated by an agency. Contractor systems shall include information systems used or operated by a
contractor of an agency or other organization on behalf of an agency. The total number of systems shall include both agency systems and contractor systems.

Agencies are responsible for ensuring the security of information systems used by a contractor of their agency or other organization on behalf of their agency;
therefore, self reporting by contractors does not meet the requirements of law. Self-reporting by another Federal agency, for example, a Federal service
provider, may be sufficient. Agencies and service providers have a shared responsibility for FISMA compliance.

                          Question 2: Certification and Accreditation, Security Controls Testing, and Contingency Plan Testing
2. For the Total Number of Systems reviewed by Component/Bureau and FIPS System Impact Level in the table for Question 1, identify the number
and percentage of systems which have: a current certification and accreditation, security controls tested and reviewed within the past year, and a
contingency plan tested in accordance with policy.

                                                                     Question 1                                                       Question 2
                                                  a.                     b.                   c.                    a.                      b.                c.
                                            Agency Systems       Contractor Systems    Total Number of          Number of              Number of         Number of
                                                                                          Systems            systems certified     systems for which systems for which
                                                                                        (Agency and           and accredited        security controls contingency plans
                                                                                         Contractor                                 have been tested have been tested
                                                                                          systems)                                  and reviewed in in accordance with
                                                                                                                                      the past year         policy


                                                                                                  Total
                      FIPS 199 System                  Number          Number   Total                         Total     Percent     Total     Percent     Total   Percent
Bureau Name                                Number              Number                            Number
                      Impact Level                    Reviewed        Reviewed Number                        Number     of Total   Number     of Total   Number   of Total
                                                                                                Reviewed
NRC                   High                        4          0         0           0        4            0         1       25%           4      100%          0        0%
                      Moderate                   11          1         4           0       15            1         5       33%          13       87%          7       47%
                      Low                         0          0         1           0        1            0         1      100%           1      100%          0        0%
                      Not Categorized            15          0         6           0       21            0         0        0%          18       86%          0        0%
                      Sub-total                  30          1        11           0       41            1         7       17%          36       88%          7       17%
Component/Bureau      High                                                                  0            0
                      Moderate                                                              0            0
                      Low                                                                   0            0
                      Not Categorized                                                       0            0
                      Sub-total                   0          0          0          0        0            0          0                    0                    0
Component/Bureau      High                                                                  0            0
                      Moderate                                                              0            0
                      Low                                                                   0            0
                      Not Categorized                                                       0            0
                      Sub-total                   0          0          0          0        0            0          0                    0                    0
Component/Bureau      High                                                                  0            0
                      Moderate                                                              0            0
                      Low                                                                   0            0
                      Not Categorized                                                       0            0
                      Sub-total                   0          0          0          0        0            0          0                    0                    0
Component/Bureau      High                                                                  0            0
                      Moderate                                                              0            0
                      Low                                                                   0            0
                      Not Categorized                                                       0            0
                      Sub-total                   0          0          0          0        0            0          0                    0                    0
Component/Bureau      High                                                                  0            0
                      Moderate                                                              0            0
                      Low                                                                   0            0
                      Not Categorized                                                       0            0
                      Sub-total                   0          0         0           0        0            0          0                     0                   0
Agency Totals         High                        4          0         0           0        4            0          1      25%            4     100%          0        0%
                      Moderate                   11          1         4           0       15            1          5      33%           13      87%          7       47%
                      Low                         0          0         1           0        1            0          1     100%            1     100%          0        0%
                      Not Categorized            15          0         6           0       21            0          0       0%           18      86%          0        0%
                      Total                      30          1        11           0       41            1          7      17%           36      88%          7       17%




                                                                                  58
                                                                                                               Independent Evaluation of
                                                                                                NRC’s Implementation of FISMA for FY 2007


                                             Section C - Inspector General: Question 3
Agency Name:   Nuclear Regulatory Commission
               Question 3: Evaluation of Agency Oversight of Contractor Systems and Quality of Agency System Inventory

      3.a.     The agency performs oversight and evaluation to ensure information systems used or operated by a
               contractor of the agency or other organization on behalf of the agency meet the requirements of
               FISMA, OMB policy and NIST guidelines, national security policy, and agency policy.

               Agencies are responsible for ensuring the security of information systems used by a contractor of their
               agency or other organization on behalf of their agency; therefore, self reporting by contractors does not meet
               the requirements of law. Self-reporting by another Federal agency, for example, a Federal service provider,
               may be sufficient. Agencies and service providers have a shared responsibility for FISMA compliance.           Mostly (81-95% of the time)

               Response Categories:
                - Rarely- for example, approximately 0-50% of the time
                - Sometimes- for example, approximately 51-70% of the time
                - Frequently- for example, approximately 71-80% of the time
                - Mostly- for example, approximately 81-95% of the time
                - Almost Always- for example, approximately 96-100% of the time

               The agency has developed a complete inventory of major information systems (including major
      3.b.     national security systems) operated by or under the control of such agency, including an
               identification of the interfaces between each such system and all other systems or networks,
               including those not operated by or under the control of the agency.
                                                                                                                             Inventory is 81-95%
               Response Categories:                                                                                          complete
                - The inventory is approximately 0-50% complete
                - The inventory is approximately 51-70% complete
                - The inventory is approximately 71-80% complete
                - The inventory is approximately 81-95% complete
                - The inventory is approximately 96-100% complete
      3.c.     The IG generally agrees with the CIO on the number of agency-owned systems. Yes or No.                                    Yes
               The IG generally agrees with the CIO on the number of information systems used or operated by a
      3.d.                                                                                                                               Yes
               contractor of the agency or other organization on behalf of the agency. Yes or No.
      3.e.     The agency inventory is maintained and updated at least annually. Yes or No.                                              Yes

               If the Agency IG does not evaluate the Agency's inventory as 96-100% complete, please identify the known missing systems by
      3.f.     Component/Bureau, the Unique Project Identifier (UPI) associated with the system as presented in your FY2008 Exhibit 53 (if
               known), and indicate if the system is an agency or contractor system.
                                                                                                                                 Agency or
                                                                                                 Exhibit 53 Unique Project
                         Component/Bureau                           System Name                                                  Contractor
                                                                                                      Identifier (UPI)
                                                                                                                                  system?




               Number of known systems missing
               from inventory:




                                                                       59
                                                                                                                       Independent Evaluation of
                                                                                                        NRC’s Implementation of FISMA for FY 2007


                                                Section C - Inspector General: Questions 4 and 5
Agency Name: Nuclear Regulatory Commission
                                   Question 4: Evaluation of Agency Plan of Action and Milestones (POA&M) Process
Assess whether the agency has developed, implemented, and is managing an agency-wide plan of action and milestones (POA&M) process.
Evaluate the degree to which each statement reflects the status in your agency by choosing from the responses provided. If appropriate or
necessary, include comments in the area provided.

For each statement in items 4.a. through 4.f., select the response category that best reflects the agency's status.

Response Categories:
 - Rarely- for example, approximately 0-50% of the time
 - Sometimes- for example, approximately 51-70% of the time
 - Frequently- for example, approximately 71-80% of the time
 - Mostly- for example, approximately 81-95% of the time
 - Almost Always- for example, approximately 96-100% of the time
                  The POA&M is an agency-wide process, incorporating all known IT security weaknesses
       4.a.       associated with information systems used or operated by the agency or by a contractor of the       Almost Always (96-100% of the time)
                  agency or other organization on behalf of the agency.
                  When an IT security weakness is identified, program officials (including CIOs, if they own or
       4.b.                                                                                                          Almost Always (96-100% of the time)
                  operate a system) develop, implement, and manage POA&Ms for their system(s).
                  Program officials and contractors report their progress on security weakness remediation to the
       4.c.                                                                                                       Almost Always (96-100% of the time)
                  CIO on a regular basis (at least quarterly).

                  Agency CIO centrally tracks, maintains, and reviews POA&M activities on at least a quarterly
       4.d.                                                                                                          Almost Always (96-100% of the time)
                  basis.

       4.e.       IG findings are incorporated into the POA&M process.                                               Almost Always (96-100% of the time)

                  POA&M process prioritizes IT security weaknesses to help ensure significant IT security
       4.f.                                                                                                          Almost Always (96-100% of the time)
                  weaknesses are addressed in a timely manner and receive appropriate resources.
                  POA&M process comments: NRC has two primary tools for tracking IT security weaknesses. At a high level, NRC uses the POA&Ms
                  required by OMB to track (1) corrective actions from the OIG annual independent evaluation, (2) corrective actions from the agency’s
                  annual review, and (3) recurring FISMA and IT security action items such as annual self-assessments and annual contingency plan
                  testing. The POA&Ms may also include corrective actions resulting from other security studies conducted by or on behalf of NRC. The
                  more specific corrective actions associated with the certification and accreditation process (e.g., corrective actions resulting from risk
                  assessments and security test and evaluation) are tracked in Rational ClearQuest as change requests using the project management
                  methodology process for change management.
                                        Question 5: IG Assessment of the Certification and Accreditation Process
Provide a qualitative assessment of the agency's certification and accreditation process, including adherence to existing policy, guidance, and
standards. Provide narrative comments as appropriate.

Agencies shall follow NIST Special Publication 800-37, "Guide for the Security Certification and Accreditation of Federal Information Systems" (May 2004) for
certification and accreditation work initiated after May 2004. This includes use of the FIPS 199, "Standards for Security Categorization of Federal Information
and Information Systems" (February 2004) to determine a system impact level, as well as associated NIST document used as guidance for completing risk
assessments and security plans.

                  The IG rates the overall quality of the Agency's certification and accreditation process as:

                  Response Categories:
                   - Excellent
       5.a.                                                                                                          Failing
                   - Good
                   - Satisfactory
                   - Poor
                   - Failing

                  The IG's quality rating included or considered the following aspects of the C&A process: Security plan                          X
                  (check all that apply)
                                                                                                               System impact level                X
                                                                                                               System test and evaluation         X
                                                                                                               Security control testing           X
       5.b.
                                                                                                               Incident handling
                                                                                                               Security awareness training
                                                                                                               Configurations/patching            X
                                                                                                               Other: Risk Asssessment          X
                  C&A process comments: Indicent handling and security awareness training were evaluated at the agency level. For more details on
                  the agency's certification and accreditation process, see attached narrative, pages 4 and 5.




                                                                               60
                                                                                                              Independent Evaluation of
                                                                                               NRC’s Implementation of FISMA for FY 2007


                                             Section C - Inspector General: Questions 6 and 7
Agency Name: Nuclear Regulatory Commission
                     Question 6: IG Assessment of Agency Privacy Program and Privacy Impact Assessment (PIA) Process

             Provide a qualitative assessment of the agency's Privacy Impact Assessment (PIA)
     6.a.
             process, as discussed in Section D II.4 (SAOP reporting template), including adherence
             to existing policy, guidance, and standards.

             Response Categories:
              - Response Categories:                                                                                       Excellent
              - Excellent
              - Good
              - Satisfactory
              - Poor
              - Failing
             Comments:




             Provide a qualitative assessment of the agency's progress to date in implementing the
     6.b.    provisions of M-06-15, "Safeguarding Personally Identifiable Information" since the most
             recent self-review, including the agency's policies and processes, and the administrative,
             technical, and physical means used to control and protect personally identifiable
             information (PII).

             Response Categories:                                                                                         Excellent
              - Response Categories:
              - Excellent
              - Good
              - Satisfactory
              - Poor
              - Failing
             Comments:




                                                        Question 7: Configuration Management

             Is there an agency-wide security configuration policy? Yes or No.                                               Yes
     7.a.
             Comments:




             Approximate the extent to which applicable information systems apply common security
     7.b.    configurations established by NIST.

             Response categories:
              -   Rarely- for example, approximately 0-50% of the time
                                                                                                          Rarely (0-50% of the time)
              -   Sometimes- for example, approximately 51-70% of the time
              -   Frequently- for example, approximately 71-80% of the time
              -   Mostly- for example, approximately 81-95% of the time
              -   Almost Always- for example, approximately 96-100% of the time




                                                                             61
                                                                                                                           Independent Evaluation of
                                                                                                            NRC’s Implementation of FISMA for FY 2007


                                             Section C - Inspector General: Questions 8, 9, 10 and 11
Agency Name: Nuclear Regulatory Commission
                                                                  Question 8: Incident Reporting
Indicate whether or not the agency follows documented policies and procedures for reporting incidents internally, to US-CERT, and to law
enforcement. If appropriate or necessary, include comments in the area provided below.

                   The agency follows documented policies and procedures for identifying and reporting
       8.a.                                                                                                                                   Yes
                   incidents internally. Yes or No.
                   The agency follows documented policies and procedures for external reporting to US-
       8.b.                                                                                                                                   Yes
                   CERT. Yes or No. (http://www.us-cert.gov)
                   The agency follows documented policies and procedures for reporting to law
       8.c.                                                                                                                                   Yes
                   enforcement. Yes or No.
                   Comments:




                                                            Question 9: Security Awareness Training
Has the agency ensured security awareness training of all employees, including contractors and those
employees with significant IT security responsibilities?

Response Categories:
 - Rarely- or approximately 0-50% of employees                                                                           Almost Always (96-100% of employees)
 - Sometimes- or approximately 51-70% of employees
 - Frequently- or approximately 71-80% of employees
 - Mostly- or approximately 81-95% of employees
 - Almost Always- or approximately 96-100% of employees
                                                              Question 10: Peer-to-Peer File Sharing
Does the agency explain policies regarding peer-to-peer file sharing in IT security awareness training,
                                                                                                                                              Yes
ethics training, or any other agency wide training? Yes or No.
                                                       Question 11: E-Authentication Risk Assessments
The agency has completed system e-authentication risk assessments. Yes or No.                                                                  No
While OMB M-04-04 only requires e-authentication risk assessments for e-Government systems, NRC requires e-authentication risk assessments for all agency systems that
require security categorizations. The e-authentication risk assessment is conducted during the security categorization of a system. The agency has completed all e-
authentication risk assessments required under OMB M-04-04; however, the agency has not completed e-authentication risk assessments for all agency systems in accordance
with its own policy.



The following supplemental information is provided in support of the FY 2007 Office of
Management and Budget (OMB) Federal Information Security Management Act (FISMA)
Reporting Template for Inspectors General for the Nuclear Regulatory Commission (NRC). The
independent evaluation of NRC’s implementation of FISMA for FY 2007 was conducted by
Richard S. Carson and Associates, Inc. (Carson Associates) on the behalf of the NRC Office of
the Inspector General (OIG).

Question 1a. NRC has a total of 3025 operational systems that fall under FISMA reporting
requirements.26 Of the 30, 17 are general support systems, and 13 are major applications. As
required by FISMA, Carson Associates selected a subset of NRC systems for evaluation during
the FY 2007 FISMA independent evaluation. However, only one of the three systems that were
selected had a current certification and accreditation. While an additional system completed
certification and accreditation in July 2007, it was after the cutoff date established at the entrance
conference, and was therefore not considered for evaluation. As there were no other systems


25
    The agency reports 31 operational systems. The OIG disagrees with the agency that an OIG system is a major
   application. It has been categorized as a listed system since it began operations in 2004. This designation is
   presently under a detailed review. Therefore, the metrics submitted by the OIG reflect a total of 30 operational
   systems.
26
    NRC also has a number of major applications and general support systems currently in development. For FISMA
   reporting purposes, only operational systems are considered.


                                                                                  62
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2007


with a current certification and accreditation to consider for evaluation, Carson Associates
evaluated only one agency system for the FY 2007 FISMA independent evaluation.

Question 1.b. NRC has a total of 11 systems operated by a contractor or other organization on
behalf of the agency (8 major applications and 3 general support systems). Of the 11, 6 are
operated by other Federal agencies, 2 are operated by federally funded research and development
centers, and 3 are operated by private contractors. NRC is responsible for direct oversight for
four of these systems. Oversight of the remaining seven systems is the responsibility of the
Federal agency operating the system. Therefore, the OIGs of those agencies would be
responsible for evaluating those systems.

As required by FISMA, Carson Associates selected a subset of the contractor systems for which
NRC is responsible for direct oversight for evaluation during the FY 2007 FISMA independent
evaluation. However, the system selected did not have a current certification and accreditation,
and none of the other contractor systems for which NRC is responsible for direct oversight had a
current certification and accreditation. Therefore, Carson Associates did not evaluate any
contractor systems for the FY 2007 FISMA independent evaluation.

Question 2. The metrics in Question 2 represent the status for all NRC systems, not just the
subset that was chosen for evaluation in FY 2007.

Question 2.a. Only two agency systems are certified and accredited, and only five systems
operated by a contractor or other organization on behalf of the agency are certified and
accredited. NRC is still developing procedures for maintaining documentation that demonstrates
systems provided by other Federal agencies meet FISMA requirements and that other contractor
systems are certified and accredited.

In accordance with OMB requirements, it constitutes a significant deficiency that only 2 of the
30 operational NRC information systems have a current certification and accreditation and only
5 of the 11 systems used or operated by a contractor or other organization on behalf of the
agency have a current certification and accreditation.

Subsequent to the completion of fieldwork, the agency reported that two additional agency
systems have also been certified and are currently under review by the agency’s designated
approving authority for consideration of an ATO.

Question 2.b. NRC meets the FISMA requirement to test and evaluate the security controls of
agency information system on an annual basis by performing annual self-assessments of the
security controls of all agency and contractor systems. NRC performed self-assessments of the
security controls for 28 of the agency’s 30 operational systems. The agency chose not to
perform a self-assessment of the OIG system discussed earlier, as that system’s status as a major
application is still under determination. As the other two agency operational systems were just
certified and accredited in FY 2007, the agency did not perform an additional self-assessment of
those systems as permitted by OMB and National Institute of Standards and Technology (NIST)
guidance. The agency also included the physical and environmental controls of the four NRC
regional offices and the NRC Technical Training Center in one self-assessment.



                                                63
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2007




NRC is required to perform self-assessments only on those contractor systems for which it has
direct oversight. Self-assessments for the remaining contractor systems are the responsibility of
the Federal agencies that operate those systems. NRC performed a self-assessment of one of the
four contractor systems for which it has direct oversight. As two of the four contractor systems
for which NRC has direct oversight are considered to be sub-components of the NRC
LAN/WAN, only the physical and environmental controls and the personnel security controls
were evaluated for these systems. The results were incorporated into the self-assessment for one
of the agency’s general support systems. The fourth contactor system for which the agency has
direct oversight was expected to be certified and accredited in FY 2007, so the agency did not
conduct a separate self-assessment for this system. However, the certification and accreditation
was not expected to be completed prior to the submission of this report, so it was not originally
included in the total number of contractor systems for which security controls have been tested
and evaluated in the past year. Subsequent to the completion of fieldwork, the agency completed
certification and accreditation of this system, and the system was granted an ATO.

For the seven contractor systems that are operated by other Federal agencies, NRC’s policy is to
confirm with the owner agencies that annual security control testing and evaluation has been
completed. As two of the Federal contractor systems were just certified and accredited in FY
2007, these two systems were included in the total number of contractor systems for which
security controls have been tested and evaluated. The agency has not obtained confirmation
from the owner agencies of the other five contractor systems operated by other Federal agencies
that annual security control testing and evaluation has been completed. Subsequent to the
completion of fieldwork, the agency provided a certification memorandum for one of the Federal
contractor systems that indicates security control testing and evaluation for the system was
completed in FY 2007. However, the agency could not demonstrate that this system has been
accredited (and therefore, that the designated approving authority for that system approved the
testing and evaluation). Therefore, it was not included in the total number of contractor systems
for which security controls have been tested and evaluated in the past year.

The agency did not use NIST Special Publication (SP) 800-53A, Guide for Assessing the
Security Controls in Federal Information Systems, for the annual assessment of security control
effectiveness, but instead used the methodology described in NIST SP 800-26, Security Self-
Assessment Guide for Information Technology Systems. Carson Associates also found that self-
assessments were not always based on an approved security categorization and that self-
assessments contained errors and inconsistencies.

Question 2.c. Only five agency systems and one contractor system has had its contingency plan
tested in the past year. Subsequent to the completion of fieldwork, the agency provided
documentation demonstrating that contingency plan testing was conducted for another contractor
system; however, the agency has not yet received the test results report. NRC is still developing
procedures for maintaining documentation that demonstrates systems provided by other Federal
agencies meet FISMA requirements (including annual contingency plan testing).

In accordance with OMB requirements, the fact that the agency has failed to conduct annual
contingency plan testing for all systems for the past 3 years constitutes a significant deficiency.



                                                 64
                                                                                          Independent Evaluation of
                                                                           NRC’s Implementation of FISMA for FY 2007




Question 3.a. NRC presumes that the Federal agencies that operate 7 of the 11 contractor
systems are also following FISMA and guidelines from NIST. The agency has been working
with the offices to assist in acquiring the required documentation for systems provided by other
Federal agencies. However, according to the agency, some of the other Federal agencies have
been unwilling to provide documentation that demonstrates they meet FISMA requirements.
The other Federal agencies have also been unwilling to share copies of their annual self-
assessments or results from their annual contingency plan testing. The OIG stated that a
memorandum from the Federal agencies stating that annual self-assessments and annual
contingency plan testing have been completed would be sufficient to meet the intent of the
recommendations from the FY 2005 FISMA independent evaluation regarding this finding. The
agency is currently working towards obtaining such memoranda. As of September 1, 2007, the
agency had received certification and accreditation memoranda for only four of the seven
systems provided by or operated by other Federal agencies. Due to the current focus on the
certification and accreditation phase of systems and scarcity of resources, the anticipated
completion date to receive the rest of the required documentation for systems provided by or
operated by other Federal agencies is December 31, 2007.

Question 3.b. While FISMA requires agencies to maintain an inventory only of major
information systems (major applications and general support systems), NRC also tracks two
other system types in its inventories – listed27 and other.28 To address findings from the FY 2005
FISMA independent evaluation regarding the agency’s inventory, OIS developed a new
centralized system for tracking NRC information systems. Data from various databases were
compared, and any differences were resolved. The new system was then updated with data from
biannual data calls, starting in September 2006. The new system continues to be updated with
subsequent data calls. The agency also developed several procedures and guides to assist NRC
offices with the biannual data call and to assist the agency in maintaining the inventory data in
the new system.

Carson Associates found small discrepancies between the inventory of major applications,
general support systems, and contractor systems reported in the metrics to OMB, and the actual
contents of the agency’s new inventory system. The agency has been made aware of these minor
discrepancies and is working to correct them. Carson Associates also found that the agency is
still in the process of populating the new inventory system with information on interfaces
between systems. The agency is also still working to complete one recommendation from the
FY 2006 FISMA independent evaluation regarding the classification of the agency’s Network
Continuity of Operations (COOP) system. This system was categorized as a listed system, when
it should have been categorized as a general support system. The agency has incorporated the
components of the COOP system into existing infrastructure general support systems, and is no
longer tracking the COOP system as an individual system. The agency has updated the security
27
    Listed systems are computerized information systems or applications that (1) processes sensitive information
   requiring additional security protections and (2) may be important to an NRC office’s or region’s operations, but
   which are not a major application or general support system when viewed from an agency perspective. Sensitive
   data may include individual Privacy Act information, law enforcement sensitive information, sensitive contractual
   and financial information, safeguards, and classified information.
28
    Other systems are NRC systems that do not require additional security protections and are adequately protected by
   the security provided by the NRC local area network/wide area network.


                                                         65
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2007


categorization documents for four general support systems to incorporate the appropriate COOP
components, but they have not all been approved by the Senior Agency Information Security
Officer.

Question 4. While the agency’s POA&M process is adequate, the agency has made minimal
progress in correcting weaknesses reported on its POA&Ms. The agency has corrected 35
percent of its program level weaknesses, and 23.7 percent of its system level weaknesses. This is
only a slight improvement over FY 2006. The majority of delays have been caused by delays in
completing certifications and accreditations. Carson Associates also found that the quality of the
agency’s POA&Ms needs improvement.

Question 5.a. To correct weaknesses identified by the FY 2005 and FY 2006 FISMA
independent evaluations by the NRC OIG, and to address findings from the agency’s own
evaluation, the agency has refocused its information system security program. Under the
refocused program, the agency proposed performing certification and accreditation of systems
that are a high priority from a mission perspective and others that potentially pose a higher
security risk (e.g., agency systems that communicate with systems outside the NRC network).
The first certification and accreditation schedule under the refocused program was issued in
February 2006. This schedule has changed several times since February 2006.

The first phase of the refocused program included the development of a new certification and
accreditation process, which has been finalized. The agency has finalized the templates for all
certification and accreditation documents as well as instructions for completing the templates.
The updated certification and accreditation process was also integrated into the agency’s new
project management methodology. One of the agency’s operational major applications was
chosen to “pilot” the new process and documentation standards, in part, to ensure the new
process is repeatable.

Even with the new certification and accreditation process, the refocused information system
security program, and the award of a multi-year, multi-million dollar contract to provide the
agency with consolidated information system security services, the agency has completed
certification and accreditation of only two agency systems and one contractor system for which
the agency has direct oversight in the past 2 years. In the meantime, the certifications and
accreditations for all of the agency’s remaining 28 operational systems have expired.

As stated previously, it constitutes a significant deficiency that only 2 of the 30 operational NRC
information systems have a current certification and accreditation and only 5 of the 11 systems
used or operated by a contractor or other organization on behalf of the agency have a current
certification and accreditation.

We rated the overall quality of the agency’s certification and accreditation process as failing
because the agency has completed the certification and accreditation of only two agency systems
and one contractor system for which the agency has direct oversight in the past 2 years. The
failing rating does not necessarily reflect the actual quality of the process itself. Carson
Associates could not perform a complete evaluation of the agency’s new certification and
accreditation process, as only two systems had completed certification and accreditation under



                                                66
                                                                             Independent Evaluation of
                                                              NRC’s Implementation of FISMA for FY 2007


the new process at the time of our evaluation. Based on the certification and accreditation
documents we did review, we found that the agency’s certification and accreditation process is
inconsistent with NIST guidance.

Question 9. NRC ensures all employees and contractors receive security awareness and
training. However, the agency still has not met the requirement to provide specialized training
for employees with significant security responsibilities as described in NIST SP 800-16,
Information Technology Security Training Requirements: A Role- and Performance-Based
Mode. The agency is still working with NRC offices to identify employees and contractors with
significant IT security responsibilities. The agency is also still developing procedures for
ensuring staff with significant IT security responsibilities are identified and receive security
awareness training and that the individual and associated training are properly documented and
readily identifiable.

Question 11. While OMB M-04-04, E-Authentication Guidance for Federal Agencies, only
requires e-authentication risk assessments for e-Government systems, NRC requires
e-authentication risk assessments for all agency systems that require security categorizations.
The e-authentication risk assessment is conducted during the security categorization of a system.
The agency has completed all e-authentication risk assessments required under OMB M-04-04;
however, the agency has not completed e-authentication risk assessments for all agency systems
in accordance with its own policy. Only 15 of the 30 operational NRC information systems have
completed e-authentication risk assessments. Only 5 of the 11 contractor systems have
completed e-authentication risk assessments. According to the agency, the target date for
completing all e-authentication risk assessments was July 30, 2007. This target date was not
met.




                                               67
                                            Independent Evaluation of
                             NRC’s Implementation of FISMA for FY 2007




[Page intentionally left blank]




              68
                                                       Independent Evaluation of
                                        NRC’s Implementation of FISMA for FY 2007


Appendix E.   MEMORANDUM TRANSMITTING AGENCY RESPONSE




                               69
                                            Independent Evaluation of
                             NRC’s Implementation of FISMA for FY 2007




[Page intentionally left blank]




              70
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2007


Appendix F.        FORMAL AGENCY COMMENTS AND DETAILED OIG ANALYSIS
                   OF AGENCY COMMENTS

At an exit conference with the agency held on September 17, 2007, the agency provided informal
written comments and generally agreed with the report recommendations. The NRC Chief
Information Officer provided a formal response to this report on September 24, 2007. Appendix
E contains the Chief Information Officer’s transmittal letter. This appendix contains the
agency’s formal comments along with OIG’s analysis and response to those comments. NRC’s
comments are presented in their entirety and appear in italics, followed by the OIG analysis of
the comments. This final report incorporates revisions made, where appropriate, in response to
the agency’s comments.

General Comments

Credit is not given in the “Results in Brief” section for the positive finding with respect to how
the agency is managing Privacy and PII information. We request this section include these
positive results.

The report was modified to note the agency’s progress in managing Privacy and PII information.

Comments on Recommendations

1. Staff believes Security Categorizations are correct based on the information in their systems.
   Staff is not aware of a requirement that the information type listed in the Security
   Categorization has to match the Exhibit 53.

The report was not modified. While it is true that there is no requirement that the information
type listed in the Security Categorization has to match the Exhibit 53, it is implied by the process
described in NIST SP 800-60 Volume I. The methodology described in NIST SP 800-60
Volume I includes:

   •   Identifying the fundamental business areas (management and support) or mission areas
       (mission-based) supported by the system under review.
   •   Identifying for each business or mission area the areas of operations or lines of business
       that describe the purpose of the system in functional terms.
   •   Identifying the sub-functions necessary to carry out each area of operation or line of
       business.
   •   Selecting the basic information types associated with the identified sub-functions.

The Exhibit 53 is the primary source for the business area, line of business, sub-function, and
information type.

   Additionally, staff does not believe any system has an inappropriate categorization because
   the information type in the Security Categorization (Sec Cat) does not match the Exhibit 53.




                                                 71
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2007


The report was not modified. While it may be true that the overall system categorizations
themselves are appropriate (i.e., the systems are correctly identified as low-, moderate-, or high-
impact systems), it is still important to correctly identify the information types that lead to that
security categorization. NIST will be updating NIST SP 800-60 in the next few months. The
correct information types need to be identified so that the agency can review the modifications
NIST makes to those information types in NIST SP 800-60 to see if the changes have any impact
on the security categorizations.

2. NRC does not perform Sec Cats on other federal agencies’ systems, but performs Sec Cats on
   the NRC information that is being processed on those other agencies’ systems. This is the
   only documentation NRC has to understand what NRC information is being placed on those
   systems. NRC uses the results of the Sec Cat performed on our information to ensure the
   security level of the hosting system meets NRC’s requirements. We request that this
   discussion leading up to the recommendation be deleted.

The report was modified and the discussion of performing security categorizations of other
Federal agencies’ systems was removed as a cause for Finding B. However, it should be noted
that while the agency’s explanation for why they performed security categorizations of other
Federal agencies’ systems is reasonable, this rationale is not clearly reflected in the security
categorizations. The security categorizations that NRC performed on the other Federal agencies’
systems give no indication that the focus was just on the NRC information that is being
processed on that other agencies’ systems, or that the focus was just on the interface with the
other agencies’ systems.

3. Staff believes the self assessments were consistent with the guidance in the Fiscal Year 2006
   Federal Information Security Management Act reporting guideline (OMB-M-06-20) which
   states that National Institute of Standards and Technology (NIST) Special Publication (SP)
   800-53a, Guide for Assessing the Security Controls in Federal Information Systems, is to be
   used for the assessment. NRC used the NIST SP 800-53a criteria in completing the self
   assessments. NIST SP 800-53a provides a short sample reporting template for illustrative
   purposes that is geared towards Security Test and Evaluation. An agency may use choose to
   use another format (page 373). NRC used the NIST SP 800-26, Security Self-Assessment
   Guide for Information Technology Systems, format, which also agrees with the agency
   assessment reporting format as shown in NIST SP 800-100, Information Security Handbook:
   A Guide for Managers. While NRC used the NIST SP 800-26 reporting format, we changed
   all of the data elements to capture all of the security controls listed in NIST SP 800-53 Rev.
   1, Recommended Security Controls for Federal Information Systems, and we evaluated our
   controls against NIST SP 800-53a criteria. We believe that a review of the controls used in
   the self assessments will show that the NIST SP 800-53a controls were the basis for the self
   assessments.

The report was not modified. We disagree with the statement that the agency used NIST 800-
53A criteria in completing the self assessments. There is almost no mention of using SP 800-
53A in any of the documentation provided by the agency regarding self-assessments. The task
order issued to perform the self-assessments stated that the assessments should be consistent with
draft NIST SP 800-26 Revision 1 (including Appendix A System Questionnaire) and NIST SP



                                                 72
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2007


800-53 Revision 1. Draft NIST SP 800-26 Revision 1 was pulled from the NIST Web site and is
not even considered a draft any more. The only SP 800-26 Revision 1 document still on the
NIST Web site is the questionnaire from the original SP 800-26 with mappings to the controls in
SP 800-53. The task order mentions the use of SP 800-53A, but only once. The task order
primarily focuses on the use of SP 800-26. The task order also mentions the NRC System ST&E
plan template, which does not seem to have been used at all during the self-assessments. The
agency also provided a self-assessment overview document. In the section on the self-
assessment process, the methodology the agency planned on using was described as the “self-
assessment approach of measuring progress by levels of effectiveness … continues to follow the
NIST SP 800-26 guidance.” This document makes no mention of using SP 800-53A, and the
process described in this document is the methodology described in SP 800-26. It is not the SP
800-53A methodology. The actual self-assessments also make no mention of using SP 800-53A.
They state that the self-assessments were based on NIST SP-800-26 dated April 2005. It is also
not the case that no other format was specified, other than the sample reporting template in SP
800-53A. As stated in this report, NIST issued a memorandum for the record in February 2007
(updated in May 2007), that included as an attachment a security controls assessment form,
which replaces the form contained in NIST SP 800-26, and provides a standard methodology for
capturing the results of system-level security control assessments. The form from SP 800-100
that the agency references in their comments is for assessing an information security program,
and it not intended to be used to assess an individual system. While it is true that controls used
in the self assessments are the controls found in NIST SP 800-53A, the issue is not with the
controls that were evaluated, but with the methodology used to evaluate them. The agency has
not provided any documentation that demonstrates that the methodology described in SP 800-
53A was used to conduct the self-assessments.

4. Agree. Some were based on revised Sec Cats that have been submitted but not approved to
   date.

No changes to the report were necessary.

5. Agree, if language concerning “free from errors and inconsistencies” is dropped.

The recommendation was modified as suggested.

6. Agree, written comments will provide some updates.

No changes to the report were necessary.

7. Agree. Staff has been requesting copies as Authorities to Operate are being worked.

Recommendation 7 was modified to incorporate the intent of recommendations 8 and 9.
Recommendations 8 and 9 were removed from the report.

8. Agree, if the language is revised to recommend “maintaining evidence that self assessments
   were completed” vs. having copies of self assessments. Agencies will not provide copies of
   self assessments.



                                                73
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2007




Recommendation 7 was modified to incorporate the intent of recommendations 8 and 9.
Recommendations 8 and 9 were removed from the report.

9. Agree, if the language is revised to recommend “maintaining evidence that contingency plan
   tests were completed” vs. having copies of self assessments. Agencies will not provide copies
   of test results.

Recommendation 7 was modified to incorporate the intent of recommendations 8 and 9.
Recommendations 8 and 9 were removed from the report.

10. Agree. This was addressed in a recent update to the previous report.

No changes to the report were necessary.

11. Addressed in an update to the previous report. Under the current approach, there is no
    system called Network Continuity of Operations.

The recommendation was modified to reflect the fact that there is no system called Network
Continuity of Operations, but that the security categorizations of the general support systems into
which the Network Continuity of Operations components have been incorporated have not all
been updated.

12. Agree.

No changes to the report were necessary.

13. Agree, if language concerning “free from errors and inconsistencies” is dropped.

The recommendation was modified as suggested.

14. Agree.

No changes to the report were necessary.

15. While we agree with the recommendation, we believe the current approach is consistent with
    the resources available. The most important controls were tested.

No changes to the report were necessary.

16. Agree. Procedures are in development and contracts are being developed to provide the
    training, starting with system administrators and system security officers.

No changes to the report were necessary.




                                                74
                                                                             Independent Evaluation of
                                                              NRC’s Implementation of FISMA for FY 2007


17. Please change the language to read “Review and update the remaining two e-Authentication
    risk assessments as specified in recommendation 8 of OIG-05-A-21 to correct inaccuracies
    and inconsistencies with FIPS 199 security categorizations.”

Recommendation 17 was removed from the report, and incorporated into recommendation 18
(which is now recommendation 15).

18. Agree.

No changes to the report were necessary.

Additional Comments

1. Line 320. Status of Security Plan Documentation

   Notes that the agency updated security plans for 5 of the agency’s 30 operational systems.
   The list did not include the Licensing Support Network (LSN). The LSN Security Plan is in
   ADAMS (ML072340242) and its revision history indicates an Initial Release existed at the
   time of the evaluation:

       Date       Version Description                               Author
       8/17/2007 1.1      Updated to reflect findings from Security MAR, Incorporated
                          Test and Evaluation conducted by
                          Atomic Safety and Licensing Board
                          Panel (ASLBP) and AT&T Government
                          Solutions
       6/11 /2007 1.0     Initial Release                           MAR, Incorporated

   Accordingly, we believe that the LSN should have been included in the list for which
   new/updated Security Plans were developed during Fiscal Year (FY) 2007. Please include
   this in your numbers.

The report was modified as suggested. However, it should be noted that the security plan was
not provided by the cutoff date established at the entrance conference. While the update may
have occurred August 17, 2007, the document was not placed in ADAMS until August 24, 2007,
which was after the cutoff date established at the entrance conference. The agency also did not
include this security plan in metrics it provided to the OIG with the 4th Quarter FY 2007
POA&M submission.

2. Line 341. We suggest that the sentence be amended (in italics) to read “Annual contingency
   plan testing is still not being performed for all systems.” On page 22, beginning on line 863,
   it is indicated that contingency plan testing has been conducted for some systems.

The report was modified as suggested.

3. Line 471. Security Categorization for the LSN Exhibit 53 Issue.


                                               75
                                                                             Independent Evaluation of
                                                              NRC’s Implementation of FISMA for FY 2007




   Page 9, Finding A
   Identifies the LSN as having a security categorization that did not reflect the primary
   business area, primary line of business, and/or primary sub-function of those systems as
   indicated on the Exhibit 53.

   Agreed as factual, however, there is no requirement for reconciliation between the Sec Cat
   and the Exhibit 300 and we believe this finding should be deleted.

The report was modified to remove LSN as an example of a security categorization that is
inconsistent with the Exhibit 53. The agency’s rationale (item 4 below) is sufficient to explain
the inconsistency. However, the overall finding was not deleted as suggested. See our response
to the agency’s comments on recommendation #1.

4. Line 501. National Institute of Standards and Technology (NIST) Information Type Issue.

   Page 10, Finding A
   Asserts that the Information Type in the Security Categorization does not even reflect the
   actual mission of the system.

   Since June 2004, ASLBP, the Office of Information Services (OIS), and the contractor teams
   working on LSN Certification and Accreditation (C&A) efforts have struggled with the
   failure of NIST to address portal and text indexing environments in NIST 800-60 and the
   intermittent spidering and data extraction that is a different paradigm than peer-to-peer data
   sharing as described in SP 800-47.

   The description in NIST 800-60 at page 229 is as follows (with emphasis added):

       “D.22.4 Information Infrastructure Management Information Type Information
       Infrastructure Management involves the management and stewardship of a type of
       information by the Federal Government and/or the creation of physical communication
       infrastructures on behalf of the public in order to facilitate communication. This includes
       the management of large amounts of information (e.g., environmental and weather data,
       criminal records, etc.), the creation of information and data standards relating to a
       specific type of information (patient records), and the creation and management of
       physical communication infrastructures (networks) on behalf of the public.”

   The recommended provisional security categorization for the information infrastructure
   maintenance information type is as follows: Security Category = {(confidentiality, Low),
   (integrity, Low), (availability, Low)}.

   The information content in the LSN system is almost a precise match for this description.
   Excluding help pages, the LSN is a network comprised of: (1) a Commercial Off-the-Shelf
   (COTS) full text search engine (2), “Spidering” software, and (3) indexes.




                                               76
                                                                                            Independent Evaluation of
                                                                             NRC’s Implementation of FISMA for FY 2007


       The role of the LSN Administrator as defined in 10 CFR Part 2, Subpart J is the role of a
       manager and independent steward. The LSN is a network of 14 interconnected computer
       systems, only two of which are federal. The system is publicly accessible, without access
       controls, via the internet. The user community is comprised of non-government and
       government users. It facilitates the identification, search and retrieval of information. It
       contains a large amount of information. The system mission is outlined in 10 CFR Part 2,
       Subpart J and the data content specifically represents and precisely fulfills the requirement
       at 10 CFR § 2.1011 (b)(2)(i). The system follows information and data standards defined by
       NRC at 10 CFR § 2.1011 (b)(2)(ii) et seq.

       The specific type of information to be included, as well as information to be excluded, is
       described in 10 CFR § 2.1003 and § 2.1005. NRC created and manages the central indexing
       system, web hosting, and telecommunications infrastructure that enables the system.

       The information type described in NIST 800-60 as quoted above, objectively read, matches
       the mission and operation of the LSN. It is acknowledged that it is outside the construct of
       “public goods construction” but ASLBP did not craft the taxonomic structure of the NIST
       guidance or have an opportunity to bring this particular shortcoming, or the lack of
       adequate coverage for portals and web indexes in general, to their attention. Conversely, it
       is arguable that classifying the information type per NIST 800-60, Section D.17.1 Judicial
       Hearings Information Type29 is inappropriate because document discovery is typically
       transacted between parties and external to the agency’s adjudicatory process.

       Finally, the Independent Evaluation recommends using the “permits and licensing
       information type under the regulatory and compliance enforcement line of business.”
       ASLBP agrees to explore adding this to the information type discussion in the LSN system
       documentation, but notes that per the discussion in NIST 800-60 for the Permits and
       Licensing Information Type,30 the recommended security categorization would continue to be
       “Security Category = {(confidentiality, Low), (integrity, Low), (availability, Low)}.” We
       believe that the narrative regarding the LSN’s current information type categorization not
       reflecting the risk impact to the agency should be removed as a finding.

The report was modified to remove LSN as an example of a security categorization that is
inconsistent with the Exhibit 53, including the discussion of alternative information types for that
system. The agency’s rationale is sufficient to explain their choices in determining the system’s
information type. However, the overall finding was not deleted as suggested. See our response
to the agency’s comments on recommendation #1.

5. Lines 563-570. This seems to contradict the earlier sentences (541-553) “Categorize all
   NRC information systems, including systems operated by a contractor or other organization
   on behalf of the agency, in accordance with Federal Information Processing Standards
   (FIPS) 199.” If this sentence means to have up-to-date security documentation from the


29
     Judicial hearings include activities associated with conducting a hearing in a court of law to settle a dispute.
30
     Permits and Licensing involves activities associated with granting, revoking, and the overall management of the
     documented authority necessary to perform a regulated task or function.


                                                            77
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2007


   systems operated by other organizations on behalf of the agency, it should be more clear and
   concise in meaning.

The report was modified to remove the discussion regarding performing security categorizations
for systems that are not major applications or general support systems, or are operated by other
Federal agencies. Minor modifications were made to the recommendation to make it clear that
the agency should complete the security categorization of all their major applications and general
support systems.

6. Lines 621-622. Please examine the sentence as the phrase “..., but less than annually"
   should probably read “..., but no less than annually” as it does in line 675 on page 16.

The report was modified to read “but not less than annually.”

7. Lines 653-662. The Office of Administration (ADM) has received the annual security control
   testing and evaluation for FPDS-NG. The document is dated May 24, 2007.

The report was not modified. The agency provided a certification memorandum for FPDS-NG
that supports the statement that security control testing and evaluation for FPDS-NG was
completed in FY 2007. However, the agency could not demonstrate that this system has been
accredited (and therefore, that the designated approving authority for that system approved the
testing and evaluation). Therefore, it was not included in the total number of contractor systems
for which security controls have been tested and evaluated in the past year.

8. Lines 711-716. The bullets do not fully describe that “for 2 operational systems, the FEES
   and HRMS, additional evaluations were conducted to validate that controls were
   implemented and to assess compensating controls, even though policies and procedures may
   not have been fully in place.” We request this sentence be updated in the report.

The report was not modified. We acknowledge that the self-assessments for the two systems
noted above include descriptions of controls in place in the “Comments” column, and that they
also include, where needed, a discussion of compensating controls. However, there is no
evidence that additional evaluations were conducted to obtain this information. The presence of
the additional information in the self-assessments does not clearly demonstrate that additional
evaluations were conducted. The self-assessments only mention document reviews and
interviews as methods used to conduct the self-assessments.

9. Lines 727 and 728. We do not agree with the sentence “For example, if a control had
   policies, but no procedures, then the implementation of that control was never evaluated,
   even if the control was actually implemented.” We suggest adding the following (in italics):
   “For example, except for 2 systems (FEES and HRMS), if a control had policies…”

The report was modified to state “then the implementation of that control was, in most cases,
never evaluated.”




                                                78
                                                                             Independent Evaluation of
                                                              NRC’s Implementation of FISMA for FY 2007


10. Lines 783-792. Integrated Personnel Security System (IPSS) discussions occurred between
    ADM and OIS and it was determined that the system had originally been listed as a high-
    impact security control baseline and that it should be a moderate-impact security control
    baseline. This was discussed during the self-assessment interview, but there was no area in
    the self-assessment document that requested discussion for the change. The IPSS Security
    Categorization has gone forward from ADM to OIS for review and approval.

The report was not modified, but the agency’s comment is noted.

11. Lines 865 and 866. Please amend (in italics) the sentence to read “2 (FFS and FPPS) of the
    agency’s contractor systems, had their contingency plans tested in FY 2007.” A contingency
    plan test was conducted for the FPPS on August 15, 2007, which may have been after the
    field work was completed for this evaluation. We have requested but have not yet received
    the test results report; however, we do have email traffic and contact names available as
    evidence of the testing, which we can provide. Please also update the table on page 69 to
    reflect this date, and the scheduled date for August 2008.

The metrics were modified to reflect annual contingency plan testing for FPPS. The agency
provided documentation that demonstrates contingency plan testing was conducted for FPPS in
August 2007. It should be noted that our criteria for including contingency plan testing in the
metrics is that not only must the testing have occurred before the cutoff date established at the
entrance conference, but the test report results must also have been submitted to and approved by
the agency prior to or on the cutoff date. We do not count contingency plan tests that are not
supported by a test report that has been approved by the agency. It should also be noted that the
agency did not count annual security control testing for FPPS in the metrics it provided to the
OIG with the 4th Quarter FY 2007 POA&M submission.

12. Lines 887-907. IPSS has not had a planned contingency plan test done since 2004.
    However, the contingency plan has been tested in actual operations six times since that
    period due to system outages for upgrades or maintenance. In each case implementation of
    the contingency plan was successful and no deficiencies were identified. We request this
    information be added to the report or the finding dropped.

The report was not modified as the agency has not provided any evidence to support the
statement that the contingency plan has been tested in actual operations due to system outages
for upgrades or maintenance. It should be noted that testing of a contingency plan in actual
operations is an accepted form of contingency plan testing and can be documented in a
contingency plan test report. The testing of the contingency plan in actual operations would have
been counted if it had been documented.

13. Line 915. If bracketed items are to be carried over to the final report then “...[CNRWA, …”
    should be “...[CNWRA,...”

All system names in brackets were removed from the discussion draft before the report was
submitted as a final.




                                               79
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2007


14. Line 918. Contingency Plan Testing for Low Risk Systems. Pages 23, 24, Finding G
    identifies the LSN as one of the 10 systems that did not complete contingency plan testing.

   ASLBP was advised by OIS and the contractors supporting the development of the C&A
   package for the LSN that annual contingency plan testing is not required for systems with
   “Low-Low-Low” risk assessments, whereas the Independent Evaluation asserts that this is a
   “requirement.” Page 3 of Annex 1 Low Impact Baseline to 800-53 specifies for control
   family Contingency Planning, (CP-4) Contingency Plan Testing and Exercises “not
   selected.” Accordingly we request this finding be removed.

The report was not modified. While it is true that NIST SP 800-53 Revision 1 does not require
contingency plan testing (control CP-4) for low-impact systems, the agency requires contingency
plan testing for all major applications and general support systems. This requirement can be
found in several documents including:

   •   MD and Handbook 12.5, Table 3-1, page 35
   •   OIS-9000D-004 Revision 0, Ensure Contingency Plans are Tested Annually for Major
       Applications (MA) and General Support Systems (GSS), dated July 1, 2007
   •   ISS-00-001 Revision 0, Annual Update of System Security Documentation for Automated
       Information Systems, dated March 1, 2006
   •   Project Management Methodology Web site, Roadmap: ISS C&A Deliverables

The agency has not provided any policies or guidance that contradicts the requirement that all
major applications and general support systems, even those that are low-impact, require annual
contingency plan testing.

15. Lines 1117-1118. “...the NRC the network...” should be “..the NRC network...”

The report was modified as suggested.

16. Lines 1316-1321. Concludes that “…the certifications and accreditations for all the
    agency’s remaining 28 operational systems have expired.” For the HRMS and FEES
    systems, as well as for other systems, new C&A activities have been conducted and are in
    process.

   We suggest adding the sentence: “Of these 28 systems, 14 have completed new C&A
   activities through the security categorization, 9 have completed risk assessments, and 9 are
   in the security plan phase.”

The report was not modified as suggested. The agency has not provided sufficient evidence to
support the statement that new C&A activities have been conducted and are in process.

17. Lines 1402-1419. The report states that the agency may not have an adequate understanding
    of the threats, risks, and vulnerabilities for systems operating under an interim authority to
    operate (IATO). For the FEES and HRMS systems operating under an IATO, the risks are



                                                80
                                                                           Independent Evaluation of
                                                            NRC’s Implementation of FISMA for FY 2007


   known as each have approved security categorizations and risk assessments, and security
   plans have been prepared but are not approved. We suggest noting this in the report.

The report was modified to remove FEES and HRMS from the examples of systems that are
currently operating under an IATO.

18. Page 72, regarding the FEES and HRMS Plan of Action and Milestones (POA&Ms)

   For the FEES System, we request additional information, as we do not have information that
   supports the statement in the 2nd bullet. FEES POA&M weaknesses related to an IG report
   were closed this past year, and some were closed because “a decision was made at the
   agency level not to continue with the C&A on this legacy system undergoing modernization.”
   Please update or remove the bullet.

The agency was provided with the specific POA&M items referred to in the 2nd bullet. The
report was modified to clarify the discussion of these particular POA&M items.

   For the HRMS weaknesses related to the security plan and the contingency plan, these were
   closed because an IATO was provided, and it was decided not to invest additional resources
   in the security plan. The contingency plan has been updated and a test performed.
   Additionally, we suggest the bullet for HRMS be amended to reflect that “a decision was
   made at the agency level not to continue with the C&A on this legacy system undergoing
   modernization.”

The report was modified to clarify the discussion of these particular POA&M items.

19. The FEES system acronym should be used consistently throughout the document.

All system names in brackets were removed from the discussion draft before the report was
submitted as a final.




                                              81
                                            Independent Evaluation of
                             NRC’s Implementation of FISMA for FY 2007




[Page intentionally left blank]




              82
